APPENDICES

1a
APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-12736
D.C. Docket No. 1:12-cv-04020-AT
UNITED STATES OF AMERICA EX REL.,
Plaintiff,
VICTOR E. BIBBY,
BRIAN J. DONNELLY,
Plaintiffs-Appellants
Cross-Appellees,
versus
MORTGAGE INVESTORS CORPORATION,
WILLIAM L. EDWARDS,
“BILL”,
Defendants-Appellees
Cross-Appellants
WILLIAM L. EDWARDS, AS TRUSTEE
OF WILLIAM L. EDWARDS
REVOCABLE TRUST,
Defendant.
Appeal from the United States District Court for the
Northern District of Georgia

(February 17, 2019)

2a
Before WILSON, NEWSOM, and ED CARNES, Circuit Judges.
WILSON, Circuit Judge:
We vacate our previous opinion published at 985
F.3d 825 and replace it with the following opinion.
More than 14 years ago, Appellants Victor Bibby
and Brian Donnelly (Relators) brought this qui tam
action against Mortgage Investors Corporation (MIC)
under the False Claims Act (FCA).
The FCA imposes liability on any person who
“knowingly presents, or causes to be presented, a false
or fraudulent claim for payment or approval,” or
“knowingly makes, uses, or causes to be made or used,
a false record or statement material to a false or fraudulent claim.” 31 U.S.C. § 3729(a)(1)(A)–(B). As an enforcement mechanism, the FCA includes a qui tam
provision under which private individuals, known as
relators, can sue “in the name of the [United States]
Government” to recover money obtained in violation
of § 3729. Id. § 3730(b)(1). 1 If the relators prevail, they
are entitled to retain a percentage of any proceeds as
a reward for their efforts. Id. § 3730(d).
The Relators in this case are mortgage brokers.
For years, they specialized in originating United
States Department of Veterans Affairs (VA) mortgage
loans, particularly Interest Rate Reduction Refinance
Loans (IRRRL). Relators learned through their work
with IRRRLs that lenders often charged veterans fees
The government has the option to intervene in the action, either within 60 days after receiving the complaint or
upon a later showing of good cause. 31 U.S.C. § 3730(b)(2),
(b)(4), (c)(3). In this case, the government communicated
with Relators about their allegations but eventually decided not to intervene.
1

3a
that were prohibited by VA regulations, while falsely
certifying to the VA that they were charging only permissible fees. In doing so, these lenders allegedly induced the VA to insure the IRRRLs, thereby reducing
the lenders’ risk of loss in the event a borrower defaults.
On March 3, 2006, Relators filed this qui tam action under the FCA against MIC to recover the money
the VA had paid when borrowers defaulted on MICoriginated loans. 2 Relators later amended their complaint to add a state law fraudulent transfer claim
against MIC executive William L. Edwards and to add
a corporate veil-piercing theory of liability, which
made Edwards a defendant to the FCA claim. The district court granted Edwards’s motion to dismiss the
fraudulent transfer claim for lack of standing. And it
granted MIC’s motion for summary judgment on the
FCA claim, holding that no reasonable jury could find
MIC’s alleged fraud was material. Relators now appeal. In conditional cross-appeals, Edwards argues
that the district court lacks personal jurisdiction over
him, while MIC argues that if we reverse the district
court’s ruling on materiality, the FCA claim is nonetheless barred by previous public disclosure.
We conclude that summary judgment was improper on Relators’ FCA claim because genuine issues
of material fact remain as to whether MIC’s alleged
false certifications were material. Next, we agree with
the district court that Relators’ claim is not barred by
previous public disclosure. Further, we hold that the
district court has personal jurisdiction over Edwards.
Finally, we hold that Relators lack standing on the
fraudulent transfer claim because their pre-judgment
Relators originally filed suit against 27 other mortgage
lenders, but MIC is the only remaining defendant.
2

4a
interest in preventing a fraudulent transfer is a mere
byproduct of their FCA claim and cannot give rise to
an Article III injury in fact.
I. BACKGROUND
A. IRRRL Program Background
An overview of the IRRRL program is necessary
to understand Relators’ claims on appeal. The program seeks to help veterans stay in their homes by
allowing them to refinance existing VA-backed mortgages at more favorable terms. In keeping with the
program’s goal of helping veterans, VA regulations restrict the fees and charges that participating lenders
can collect from veterans. 38 C.F.R. § 36.4313(a). And
to hold lenders accountable, the regulations require
lenders to certify their compliance as a prerequisite to
obtaining a VA loan guaranty. Id. Specifically,
§ 36.4313(a) permits lenders to collect only those fees
and charges that are “expressly permitted under paragraph (d) or (e) of this section ....” Id. Relevant to this
appeal, paragraph (d) allows veterans to pay “reasonable and customary” charges for “[t]itle examination
and title insurance,” as well as various other itemized
fees. Id. § 36.4313(d)(1). 3 Attorney fees are not among
the permitted fees and charges. Id. § 36.4313(d).
The mechanics of the loan certification process
work like this. Once a lender has approved an IRRRL,
it “gives closing instructions to the attorney or title

Paragraph (d) further provides that “[a] lender may
charge . . . a flat charge not exceeding 1 percent of the
amount of the loan, provided that such flat charge shall be
in lieu of all other charges relating to costs of origination
not expressly specified and allowed in this schedule.” 38
C.F.R. § 36.4313(d)(2).
3

5a
company handling the closing for the lender.” 4 The
lender or its agent then prepares a statement, known
as a HUD-1, listing all the closing costs and fees. The
HUD-1 requires lenders to break out the costs they
incurred and the amounts they are collecting for various charges and fees, such as title search and title examination. Before closing, the lender is to review the
HUD-1 for accuracy. Then, after the lender’s agent
closes the loan, the lender sends the HUD-1 to the VA
along with a certification that it has not imposed impermissible fees on the veteran borrower. Only upon
this certification does the VA issue a guaranty to the
lender.
Complicating matters, once lenders such as MIC
obtain VA loan guaranties on IRRRLs, they sell those
loans on the secondary market to holders in due
course. This is an important wrinkle because when a
holder in due course holds the IRRRLs, the VA is required by statute and regulation to honor the guaranties corresponding to those loans. See 38 U.S.C. § 3721
(the Incontestability Statute) (“Any evidence of guaranty or insurance issued by the Secretary shall be conclusive evidence of the eligibility of the loan for guaranty or insurance under the provisions of this chapter
and of the amount of such guaranty or insurance.”);
38 C.F.R. § 36.4328(a)(1) (providing that misrepresentation or fraud by the lender shall not constitute a defense against liability as to a holder in due course). In
other words, the guaranties are incontestable vis-à-vis
holders in due course. The VA must turn to the originating lender to seek a remedy for that lender’s fraud

In outlining the loan certification process, we rely in part
on allegations in Relators’ Fourth Amended Complaint
that MIC does not appear to contest.
4

6a
or material misrepresentation—it cannot simply refuse to honor the guaranties. See id.
B. Procedural Background
Relators filed suit under the FCA’s qui tam provision in 2006, alleging the following facts. MIC charged
veterans impermissible closing fees and attempted to
cover its tracks by “bundling” the unallowable charges
with allowable charges, listing them together as one
line-item on HUD-1 forms. For example, MIC would
collect prohibited attorney fees from veterans and
bundle those fees with allowable title examination
and title insurance fees, so that the attorney fees were
concealed. By doing so, and by falsely certifying its
compliance with VA regulations, MIC induced the VA
to guaranty IRRRLs and to ultimately honor those
guaranties when borrowers defaulted. MIC countered,
in relevant part, that the FCA claim is barred because
a 2002 court filing had already publicly disclosed Relators’ allegations.
In late 2011, as Relators’ case against MIC proceeded, MIC began to distribute assets to its shareholders—in large part to Edwards, MIC’s majority
shareholder and chairman of its Board of Directors.
This trend escalated in 2012 and 2013. During that
two-year period, MIC allegedly transferred a whopping $242,006,838 to Edwards and MSP (Edwards’s
wholly-owned entity), leaving MIC insolvent. According to Relators, MIC then shut down its operation to
prevent Relators from collecting any judgment they
might obtain in this FCA action. MIC initially insisted
that it remained solvent and was “here for the long
haul.” But by May 2015, when the district court inquired about MIC’s continued solvency, counsel for
MIC responded that “it’s not a secret that my client
stopped making loans some time ago, but that’s it.”

7a
And in June 2015, MIC’s counsel could not “make any
representation about the financial state of the company.” Relators amended their complaint in January
2016 to add a state law fraudulent transfer claim
against Edwards and to plead a corporate veil-piercing theory.
In a series of orders, the district court first found
that it had personal jurisdiction over Edwards but dismissed Relators’ fraudulent transfer claim for lack of
standing. It then found that Relators’ FCA claim was
not barred by public disclosure but ultimately granted
MIC summary judgment on the ground that Relators
provided insufficient evidence to create a genuine issue of material fact on the element of materiality.
II. STANDARD OF REVIEW
We review de novo the district court’s grant of
summary judgment on the FCA claim, applying the
same standard applied by the district court. UrquillaDiaz v. Kaplan Univ., 780 F.3d 1039, 1050 (11th Cir.
2015). Under this standard, summary judgment is appropriate only if the record shows “that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a). Even self-serving and uncorroborated
statements can create an issue of material fact.
United States v. Stein, 881 F.3d 853, 856 (11th Cir.
2018) (en banc). And all reasonable inferences from
the evidence are to be drawn in favor of the non-moving party; the court may not resolve factual disputes
by weighing conflicting evidence. Ryder Int’l Corp. v.
First Am. Nat. Bank, 943 F.2d 1521, 1523 (11th Cir.
1991).
We also review de novo the dismissal of Relators’
fraudulent transfer claim for lack of standing and the

8a
denial of Edwards’s motion to dismiss for lack of personal jurisdiction. Ga. State Conf. of NAACP Branches
v. Cox, 183 F.3d 1259, 1262 (11th Cir. 1999); United
States v. Elmes, 532 F.3d 1138, 1141 (11th Cir. 2008).
III. DISCUSSION
First, we address the district court’s grant of summary judgment on Relators’ FCA claim. After careful
review, we reverse the district court because it impermissibly resolved factual disputes by weighing conflicting evidence, a task that should have been left to
the factfinder. Because genuine issues of material fact
remain on the element of materiality, MIC is not entitled to summary judgment. 5
Second, we affirm the district court’s finding that
Relators’ FCA claim is not barred by previous public
disclosure. The previous court filings at issue did not
disclose the allegations on which Relators’ claim is
based.
Third, we affirm the district court’s ruling that
Edwards is subject to personal jurisdiction. Because
Relators sufficiently alleged that MIC was Edwards’s
alter ego, MIC’s suit-related forum contacts can be imputed to Edwards for the purposes of the personal jurisdiction analysis.
Fourth, we affirm the district court’s finding that
Relators lack standing to bring the fraudulent transfer claim. Relators have standing to pursue an FCA
action only through the government’s assignment of
its damages claim. And because the FCA does not as-

MIC also asserts that it is entitled to summary judgment
because Relators failed to establish causation. Because the
district court has not yet addressed that issue, we remand
to give the district court an opportunity to do so.
5

9a
sign the right to bring additional causes of action related to the FCA claim, Relators lack Article III standing to assert this claim.
A. The FCA’s Materiality Standard
To prevail on their FCA claim, Relators must
prove: “(1) a false statement or fraudulent course of
conduct, (2) made with scienter, (3) that was material,
causing (4) the government to pay out money or forfeit
moneys due.” Urquilla-Diaz, 780 F.3d at 1045. In a
comprehensive 83-page order, the district court
granted MIC summary judgment, finding that Relators failed to provide sufficient evidence to create a
genuine issue of material fact on the third element—
materiality.
The Supreme Court recently addressed materiality under the FCA in a landmark decision. Universal
Health Servs., Inc. v. United States ex rel. Escobar, 136
S. Ct. 1989 (2016). In Escobar, the Court emphasized
that the FCA’s “materiality standard is demanding.”
Id. at 2003. The FCA is not “an all-purpose antifraud
statute,” nor is it “a vehicle for punishing garden-variety breaches of contract or regulatory violations.”
Id. Therefore, “noncompliance [that] is minor or insubstantial” will not satisfy the FCA’s materiality requirement. Id.
Materiality is defined as “having a natural tendency to influence, or be capable of influencing, the
payment or receipt of money or property.” Id. at 2002.
And while several factors can be relevant to the analysis, “materiality cannot rest on a ‘single fact or occurrence as always determinative.’” Id. at 2001 (quoting
Matrixx Initiatives, Inc. v. Siracusano, 563 U.S. 27, 39
(2011)). Accordingly, several of our sister circuits have
described the test as “holistic.” United States ex rel.
Escobar v. Universal Health Servs., Inc., 842 F.3d 103,

10a
109 (1st Cir. 2016) (Escobar II); United States ex rel.
Harman v. Trinity Indus. Inc., 872 F.3d 645, 661 (5th
Cir. 2017); United States v. Brookdale Senior Living
Cmtys., Inc., 892 F.3d 822, 831 (6th Cir. 2018), cert.
denied sub nom. Brookdale Senior Living Cmtys., Inc.
v. United States ex rel. Prather, 139 S. Ct. 1323 (2019);
United States ex rel. Janssen v. Lawrence Mem’l
Hosp., 949 F.3d 533, 541 (10th Cir. 2020), cert. denied
sub nom. United States, ex rel. Janssen v. Lawrence
Mem’l Hosp., No. 20¬286, 2020 WL 5883407 (U.S. Oct.
5, 2020).
While no single factor is dispositive, some factors
that are relevant to the materiality analysis include:
(1) whether the requirement is a condition of the government’s payment, (2) whether the misrepresentations went to the essence of the bargain with the government, and (3) to the extent the government had actual knowledge of the misrepresentations, the effect
on the government’s behavior. 6 Escobar, 136 S. Ct. at
2003 & n.5, 2004. We address these factors in turn.
1.

Condition of Payment

“[T]he Government’s decision to expressly identify
a provision as a condition of payment is relevant, but
not automatically dispositive” to the materiality analysis. Id. at 2003. Here, we agree with the district
court’s conclusion that a lender’s truthful certification
that it charged only permissible fees was a condition
of the government’s payment on IRRRL guaranties.
The relevant VA regulation clearly designates that requirement a condition to payment: “no loan shall be
guaranteed or insured unless the lender certifies. . .
While Escobar does not impose a rigid three-part test or
an exhaustive list of factors, it gives guidance on factors
that can be relevant to the materiality inquiry.

6

11a
that it has not imposed and will not impose any [impermissible] charges or fees. . . .” 38 C.F.R.
§ 36.4313(a). Therefore, this factor weighs in favor of
materiality.
2.

Essence of the Bargain

We also consider the extent to which the requirement that was violated is central to, or goes “to the
very essence of[,] the bargain.” Escobar, 136 S. Ct. at
2003 n.5; see also Escobar II, 842 F.3d at 110 (considering “the centrality of the ... requirements” in the
context of the regulatory program); John T. Boese,
Civil False Claims and Qui Tam Actions 2-268–69
(5th ed. 2020) (explaining that it is Escobar’s “basic
requirement” to show that the “misrepresentation
[went] to the very essence of the bargain”) (internal
quotation mark omitted).
When viewing the evidence in the light most favorable to Relators, a reasonable factfinder could conclude that the VA’s fee regulations were essential to
the bargain with IRRRL lenders. The central aim of
the IRRRL program was to help veterans stay in their
homes, and fee regulations contributed to that goal.
VA Pamphlet 26-7 draws this connection neatly, summarizing the purpose of the IRRRL program as follows: “The VA home loan program involves a veteran’s
benefit. VA policy has evolved around the objective of
helping the veteran to use his or her home loan benefit. Therefore, VA regulations limit the fees that the
veteran can pay to obtain a loan.” The Pamphlet further provides:
The limitations imposed upon the types of charges
and fees which can be paid by veteran borrowers and
the concomitant certification by the lender as to its
compliance with this requirement furthers the purpose of “limit[ing] the fees that the veteran can pay to

12a
obtain a loan” which, in turn, ensures that a veteran
borrower can effectively “use his or her home loan benefit.”
These excerpts suggest that fee compliance was
essential to the bargain, rather than an ancillary requirement that the government labeled a condition of
payment. Therefore, a reasonable factfinder could
conclude that the requirement went to the essence of
the bargain.
3.

Effect on the VA’s Behavior

The government’s reaction to the defendant’s violations is also a factor in the materiality inquiry. Escobar, 136 S. Ct. at 2003–04. Escobar discusses three
ways the government might behave upon learning of
noncompliance and instructs us on how that behavior
factors into the materiality analysis.
First, the government might refuse to pay claims.
Id. at 2003. If “the defendant knows that the Government consistently refuses to pay claims in the mine
run of cases based on noncompliance,” that is evidence
of materiality. Id. Second, and “[c]onversely, if the
Government pays a particular claim in full despite its
actual knowledge that certain requirements were violated, that is very strong evidence that those requirements are not material.” Id. (emphasis added). And
third is a middle possibility: “if the Government regularly pays a particular type of claim in full despite actual knowledge that certain requirements were violated, and has signaled no change in position, that is
strong evidence that the requirements are not material.” Id. at 2003–04 (emphases added).
Because these three possibilities each hinge on
the government discovering the defendant’s violations, the logical first step in this analysis is to determine what the government actually knew.

13a
a.
The VA’s Actual Knowledge
Assessing the government’s actual knowledge requires that we drill down to when that knowledge was
acquired, and what exactly the government learned.
See Harman, 872 F.3d at 668 (finding no materiality
as a matter of law only after determining that there
was “no question about ‘what the government knew
and when’”). Here, the district court determined that
the VA had gained “the requisite knowledge of the alleged fraud” by 2009, largely through communication
with Relators about their allegations and through the
VA’s own investigatory audits.
As to the first of these two sources, Relators’ counsel discussed Relators’ allegations with the government in February 2006, shortly before filing the initial
complaint. Then, after filing the complaint, Relators’
counsel engaged in discussions with the Department
of Justice, the United States Attorney’s Office, and the
VA Office of Inspector General. And for the next several years, Relators continued to correspond with the
government. Therefore, the VA was aware of Relators’
allegations since 2006.
MIC argues that this knowledge of Relators’ allegations is sufficient to establish the VA’s actual
knowledge of noncompliance during the relevant
timeframe. We have not previously addressed
whether the government’s knowledge of allegations is
tantamount to knowledge of violations for purposes of
the materiality analysis. And decisions by our sister
circuits have varied in their treatment of this issue.
Compare Escobar II, 842 F.3d at 112 (“[M]ere awareness of allegations concerning noncompliance with
regulations is different from knowledge of actual noncompliance.”); with United States ex rel. Nargol v.
DePuy Orthopaedics, Inc., 865 F.3d 29, 34 (1st Cir.

14a
2017) (holding that government inaction “in the wake
of Relators’ allegations . . . renders a claim of materiality implausible”).
Yet we need not answer this question here because, in any event, the VA had actual knowledge of
MIC’s noncompliance through another source—the
VA audit findings. VA investigatory audits came in
two varieties: (1) ongoing spot audits of loan samples
by the VA’s Regional Loan Centers (RLC Audits); and
(2) periodic onsite audits by the Loan Guarantee Service Monitoring Unit (LGSMU Audits). The RLC Audits, which reviewed ten percent of all IRRRLs, revealed instances of MIC and other lenders violating
fee regulations. In fact, according to VA representative Jeffrey London, lenders collecting impermissible
fees and charges was “one of the most common loan
deficiencies” identified in the RLC Audits. As a result,
the VA sent MIC post-audit deficiency letters between
2009 and 2011, indicating that MIC had charged veteran borrowers unallowable fees and that those fees
should be refunded. Likewise, the LGSMU Audits in
both 2010 and 2012 identified noncompliant fees and
charges by MIC. The VA subsequently directed MIC
to “review the VA Lender’s Handbook and make the
necessary adjustments to ensure future compliance.”
Based on these audit findings, it is undisputed that
the VA was aware of MIC’s violation of fee regulations.
Relators contend, however, that the VA believed
that any noncompliance was the result of inadvertent,
good faith mistakes. Relators urge us to draw a distinction between the VA’s knowledge of inadvertent
violations based on audit findings and its knowledge
of actual fraud. Specifically, Relators point to the testimony of London and former VA employee William
White that the VA would have investigated further if

15a
it had been aware of IRRRL lenders intentionally bundling fees and knowingly submitting false certifications of compliance. Relators argue that the district
court erred when it discounted that testimony as
“speculative and seemingly self-serving.”
We agree that to the extent the testimony was
self-serving, it must nevertheless be credited as true
at this stage. See Stein, 881 F.3d at 856. But even taking that testimony as true, Escobar does not distinguish between inadvertent mistakes and intentional
violations. What matters is simply whether the government knew “that certain requirements were violated.” Escobar, 136 S. Ct. at 2003–04. For this reason,
our sister circuits have declined to explain away the
government’s actual knowledge of violations based on
post hoc rationalizations that the government might
have done more if it had investigated further. See
United States ex rel. McBride v. Halliburton Co., 848
F.3d 1027, 1034 (D.C. Cir. 2017) (explaining that the
analysis should remain focused on “what actually occurred” rather than on testimony that hypothesizes
what might have occurred). Here, regardless of
whether the VA assumed MIC’s noncompliance was
inadvertent, it is undisputed that VA audits had revealed MIC’s violations of IRRRL fee requirements by
2009. Therefore, the VA had actual knowledge of
MIC’s noncompliance during the relevant time frame.
b.
The VA’s Reaction
Having considered the VA’s actual knowledge of
MIC’s violations, we now consider the VA’s reaction in
the wake of discovering those violations. Escobar, 136
S. Ct. at 2003–04. But before proceeding, we must address a threshold question: Which government action
is relevant to the materiality inquiry in this case? MIC
argues that what matters is the government’s decision

16a
to continue paying claims, despite knowledge of noncompliance. In support of its position, MIC points to
language in Escobar that appears to link materiality
to the government’s payment decision. Id.; see also id.
at 2002 (looking to whether noncompliance has a “natural tendency to influence, or be capable of influencing, the payment or receipt of money or property”). Relators, along with the government as amicus curiae,
contend that the VA’s continued payment merits little
weight because the payments were required by law,
regardless of any fraud by the originating lender.
While we agree with MIC that, under Escobar, the
government action relevant to the materiality inquiry
is typically the payment decision, the significance of
continued payment may vary depending on the circumstances. See United States ex rel. Campie v. Gilead Scis., Inc., 862 F.3d 890, 906 (9th Cir. 2017) (cautioning that “to read too much into the FDA’s continued approval—and its effect on the government’s payment decision—would be a mistake” where there were
other reasons for that approval). Here, there was a
reason for the VA’s continued payment of IRRRLs
other than violations of fee regulations being immaterial. Once the VA issues guaranties, it is required by
law to honor those guaranties and to pay holders in
due course in possession of the IRRRLs, regardless of
any fraud by the original lender. 38 U.S.C. § 3721.
Given this constraint, we disagree with the district
court that much can be drawn from Relators’ failure
to submit “any evidence that . . . noncompliance would
have a palpable and concrete effect on the VA’s decision to honor the loan guarantees ....” (emphasis
added). The VA was bound to honor the guaranties.
Consequently, the facts of this case require that we
cast our materiality inquiry more broadly to consider

17a
“the full array of tools” at the VA’s disposal “for detecting, deterring, and punishing false statements,” and
which of those it employed. See Nargol, 865 F.3d at 34
(internal quotation mark omitted).
With that in mind, we return to the framework
Escobar provides. In order to find “very strong evidence” that MIC’s conduct was not material, we would
need to find that the VA paid particular claims—or as
relevant here, took comparable action—despite its actual knowledge of violations. Escobar, 136 S. Ct. at
2003. That is, while the Incontestability Statute rendered the VA’s payment decision less probative, MIC
might have established “very strong evidence” of materiality by showing, for example, that the VA agreed
to guaranty a particular loan despite actual
knowledge that MIC had falsely certified fee compliance on that loan. 7 But on the quite voluminous record before us, MIC has not pointed to a single such
instance. See Oral Argument Recording at 32:43–
33:15 (Oct. 21, 2020).
Next, in order to find even “strong evidence” that
the requirements were not material, we would need to
find that the VA paid a particular type of claim—or
took comparable action—despite its “actual
knowledge” of violations. Escobar, 136 S. Ct. at 2003–
04. Here, MIC fares better if we consider the VA’s issuance of a guaranty to be the relevant government
We find support for looking to the government’s guaranty decision in a post-Escobar FCA case from the Fifth
Circuit. United States v. Hodge, 933 F.3d 468 (5th Cir.
2019). In Hodge, lenders were accused of “fraudulently obtaining FHA insurance for loans that later defaulted.” Id.
at 472. The Fifth Circuit said that the “gist of this [materiality] inquiry is whether false representations . . . induced
HUD to issue insurance.” Id. at 474 (emphasis added).
7

18a
action. Although the VA never issued a guaranty with
knowledge that improper fees were collected on that
particular loan, it did issue loan guaranties related to
a “particular type of claim,” despite its knowledge of
audit findings that MIC imposed impermissible fees
on a certain percentage of its loans. 8 Id.
But once we divorce our analysis from a strict focus on the government’s payment decision, we see no
reason to limit our view only to the VA’s issuance of
guaranties. Looking at the VA’s behavior holistically,
the record shows that the VA took a number of actions
to address noncompliance with fee regulations. First,
the VA released Circular 26-10-01 on January 7, 2010,
reminding lenders of the applicable fee regulations
and warning of the consequences of noncompliance.
Citing VA regulations, the Circular reminded lenders
that they are to charge only the “reasonable and customary amount for certain itemized fees,” and that
“[t]he lender may NOT charge the veteran for attorney’s fees associated with settlement.” The Circular
further stated: “Lenders must comply with these policies when making VA loans. Any lender who does not
comply with these policies is subject to removal from
the program, fines by the VA, government-wide debarment, and other civil and criminal penalties that may
be applicable.”
Second, after learning of Relators’ allegations, the
VA implemented more frequent and more rigorous audits in 2010 and 2011 to root out improper fees and
charges. The change in audit methodology incorporated data from a website, Bankrate.com, that surveys lenders and provides information on average fees
London testified that, based on the VA’s audit findings,
the VA “infer[red] that there were fee issues with other
loans” that had not been audited.
8

19a
and charges in the mortgage industry. By comparing
actual fees and charges imposed by IRRRL lenders
with industry averages, the VA hoped to identify
fraudulent fee bundling more effectively. Although
the change in methodology apparently proved ineffective, it is nonetheless evidence of the VA attempting
to use tools at its disposal to detect and address false
statements.
Third, the VA consistently required lenders to refund any improperly charged fees that they discovered. Both London and White offered testimony to
that effect in their depositions.
MIC argues that the VA could have pursued more
severe remedies such as recoupment, debarment, or
suspension from the IRRRL program. Certainly, imposing such remedies would have been evidence of
materiality. See United States v. Luce, 873 F.3d 999,
1007 (7th Cir. 2017) (finding materiality as a matter
of law where the government debarred the defendant
from the relevant government program upon discovering its noncompliance). But these were not the only
tools in the VA’s toolbox. The bottom line is that, because the Incontestability Statute precludes us from
focusing narrowly on the VA’s payment decision, we
must broaden our view to consider the VA’s pattern of
behavior as a whole. And while the VA did not take
the strongest possible action against MIC, it did take
some enforcement actions.
To recap, we have thus far considered the following indicators of materiality: (1) whether the requirement is a condition of payment, (2) whether the misrepresentation was essential to the bargain, and (3)
the VA’s relevant actions based on its actual
knowledge of violations. On the first point, the VA’s
fee requirements are a condition of payment. That is

20a
indicative of materiality but does not, by itself, “automatically” establish materiality. Escobar, 136 S. Ct.
at 2003. The Escobar Court drove home that the government cannot take “insignificant regulatory or contractual violations” and imbue them with materiality
simply by labeling them as such. Id. at 2004.
But here, the requirement’s centrality within the
regulatory scheme also points toward materiality. As
the district court found, “the [VA’s] charges and fees
regulation is . . . more than an insignificant regulatory
requirement.” The requirement promoted the IRRRL
program’s central purpose, and a reasonable factfinder could have found that it was essential to the
bargain between the VA and MIC. So both the requirement’s designation as a condition of payment and its
centrality to the government program favor materiality.
The district court, however, weighed this evidence
against countervailing evidence of the VA’s knowledge
and its reaction to noncompliance. This countervailing
evidence, the court found, “significantly belie[d] the
notion that the VA characterized the alleged noncompliance in this case as material.” The court thus held
that the “sheer weight” of the evidence militated
against materiality.
To resolve the issue by weighing conflicting evidence was error. See Ryder, 943 F.2d at 1523. The materiality test is holistic, with no single element— including the government’s knowledge and its enforcement action—being dispositive. To be sure, the materiality standard is “demanding,” and courts may dismiss FCA cases at summary judgment where relators
fail to create a genuine issue of material fact on that
element. Escobar, 136 S. Ct. at 2003, 2004 n.6. That is
particularly true where “‘very strong evidence’ . . . of

21a
. . . continued payment remains unrebutted.” See Harman, 872 F.3d at 665. But here, we do not have “very
strong evidence” of immateriality. Escobar, 136 S. Ct.
at 2003. And even if we viewed the VA’s continued issuance of guaranties as “strong evidence” of immateriality, that evidence is not unrebutted. Id. at 2004. A
factfinder would still have to weigh that factor against
others, including, as relevant here, the fee and
charges requirement being a condition to payment
and essential to the IRRRL program. Because there is
sufficient evidence to support a finding of materiality,
we must leave that determination to the factfinder.
We therefore reverse the district court’s grant of summary judgment.
B. The FCA’s Public Disclosure Bar
Because we reverse the district court’s grant of
summary judgment on the issue of materiality, we
must address MIC’s conditional cross-appeal arguing
that Relators’ FCA claim is barred by previous public
disclosure. An FCA action cannot be based on allegations that are already publicly disclosed. 31 U.S.C. §
3730 (2006). 9 The relevant provision of the FCA provides that:

Congress amended this section in 2010. The pre-2010
version categorized documents as “public” if they were filed
on the publicly available docket. In the post-2010 version,
Congress significantly narrowed the scope of a public disclosure, making it easier for relators to clear the public disclosure hurdle. While the facts of our case straddle the preand post-amendment timeframes, the district court reasoned that it need not determine which version applied because there was no public disclosure even under the
broader pre-2010 version. Our analysis follows the same
trajectory.
9

22a
No court shall have jurisdiction over an action
under this section based upon the public disclosure of allegations or transactions in a
criminal, civil, or administrative hearing, in a
congressional, administrative, or Government
Accounting Office report, hearing, audit, or investigation, or from the news media, unless
the action is brought by the Attorney General
or the person bringing the action is an original
source of the information.
Id. § 3730(e)(4)(A).
The reason for the public disclosure bar is fairly
obvious. Without it, opportunistic relators—with
nothing new to contribute—could exploit the FCA’s
qui tam provisions for their personal benefit. See
United States ex rel. Springfield Terminal Ry. Co. v.
Quinn, 14 F.3d 645, 649 (D.C. Cir. 1994) (recalling the
“notorious plaintiff who copied the information on
which his qui tam suit was based from the government’s own criminal indictment”). Here, MIC argues
that Relators’ allegations had already been publicly
disclosed in a 2002 South Carolina consumer protection case, Cox v. Mortgage Investors Corp. d/b/a
Amerigroup Mortgage Corp., in which a solitary MIC
HUD-1 (the Cox HUD-1) was filed on the docket—first
in state court and later in federal court. Case No. 2:02cv-3883-DCN (D.S.C. Nov. 15, 2002). At his deposition, Relator Donnelly admitted that the Cox HUD-1
appears to reflect fee bundling. MIC argues that if fee
bundling is apparent on the face of the Cox HUD-1—
based on inflated fees listed on a particular lineitem—then the filing of that form in 2002 was a previous public disclosure of Relators’ allegations.
We have framed the public disclosure inquiry as a
three-part test: “(1) have the allegations made by the

23a
plaintiff been publically disclosed; (2) if so, is the disclosed information the basis of the plaintiff’s suit; (3)
if yes, is the plaintiff an ‘original source’ of that information.” Cooper v. Blue Cross & Blue Shield of Fla.,
Inc., 19 F.3d 562, 565 n.4 (11th Cir. 1994) (per curiam). So, under the Cooper framework, the first
prong becomes dispositive where the plaintiff’s allegations have not been publicly disclosed.
Here, on the first Cooper prong, we must determine whether the Cox HUD-1 publicly disclosed the
“allegations” on which Relators’ claim is based. Id. Because the Cooper test does not further define “allegations,” we have found instructive the D.C. Circuit’s
Springfield formula. Under that formula, “one generally must present a submitted statement or claim (X)
and the true set of facts (Y), which shows that X is
untrue. These two things together allow the conclusion (Z) that fraud has occurred.” United States ex rel.
Saldivar v. Fresenius Med. Care Holdings, Inc., 841
F.3d 927, 935 (11th Cir. 2016) (citing Springfield, 14
F.3d at 654). There is no allegation of fraud under this
formula unless each variable is present. “[W]here only
one element of the fraudulent transaction is in the
public domain (e.g., X), the qui tam plaintiff may
mount a case by coming forward with either the additional elements necessary to state a case of fraud (e.g.,
Y) or allegations of fraud itself (e.g., Z).” Springfield,
14 F.3d at 655.
The Cox HUD-1 is not an “allegation” under the
Springfield test. Even if we were to view the form as
presenting the “statement or claim” that MIC did not
impose excess fees and charges on veterans, it would
set forth only the (X) variable. Id. at 654. To be an allegation of fraud, the Cox HUD-1 would also have to

24a
reveal the true set of facts (Y): that MIC actually collected impermissible fees and bundled those fees on
the same line-item as permissible fees.
As the district court found, the Cox HUD-1, standing alone, does not do so. True, Donnelly was able to
combine his industry knowledge with the information
presented on the Cox HUD-1 to surmise that the form
reflected bundled fees. But putting aside Donnelly’s
knowledge about fee bundling in the IRRRL industry,
the information on the face of the HUD-1 alone does
not disclose that MIC concealed impermissible fees.
To the contrary, the form purports to show that MIC
collected only permissible fees. As such, Relators were
not barred from using their industry knowledge to
“mount a case by coming forward” with allegations
that MIC fraudulently bundled fees on HUD-1s to conceal violations of VA regulations. Id. at 655.
So, in conclusion, the Cox HUD-1 is not an allegation of fraud under the Springfield formula, and, accordingly, it fails the first prong of the Cooper test.
Therefore, we affirm the district court’s finding on
MIC’s conditional cross-appeal that Relators’ FCA
claim is not barred by previous public disclosure.
C. Personal Jurisdiction
Next, we address Edwards’s conditional cross-appeal challenging personal jurisdiction. The Due Process Clause of the Fourteenth Amendment “protects
an individual’s liberty interest in not being subject to
the binding judgments of a forum with which he has
established no meaningful ‘contacts, ties, or relations.’” Burger King Corp. v. Rudzewicz, 471 U.S. 462,
471–72 (1985) (quoting Int’l Shoe Co. v. Washington,
326 U.S. 310, 319 (1945)). “Due process requires that
a non-resident defendant have certain minimum contacts with the forum so that the exercise of jurisdiction

25a
does not offend traditional notions of fair play and
substantial justice.” Meier ex rel. Meier v. Sun Int’l Hotels, Ltd., 288 F.3d 1264, 1274 (11th Cir. 2002). Specific jurisdiction may be exercised “over a defendant
in a suit arising out of or related to the defendant’s
contacts with the forum,” whereas general jurisdiction
may be exercised “over a defendant in a suit not arising out of or related to the defendant’s contacts with
the forum.” Helicopteros Nacionales de Colombia v.
Hall, 466 U.S. 408, 414 n.8–9 (1984).
The district court found that Edwards would not
ordinarily have been subject to personal jurisdiction
in Georgia based on his own contacts. However, the
court held that it could exercise specific jurisdiction
over Edwards based on MIC’s suit-related forum contacts—which satisfy the minimum contacts test—because Relators sufficiently alleged that MIC was Edwards’s alter ego under a corporate veil-piercing theory. Edwards argues that this approach is inconsistent with basic concepts of due process under the
Fourteenth Amendment. He cites Walden v. Fiore for
the proposition that minimum contacts cannot be
merely attributable to the defendant—they must be
“contacts that the ‘defendant himself’ creates.” 571
U.S. 277, 284 (2014) (quoting Burger King, 471 U.S.
at 475). Edwards argues that, while it is true that a
nonresident defendant’s relationship with an entity
may be relevant to the minimum contacts analysis,
courts should not categorically impute all of the entity’s forum contacts to the defendant.
Edwards’s criticism of veil piercing as a basis for
personal jurisdiction runs up against circuit precedent. Meier, 288 F.3d at 1272; see also Stubbs v. Wyndham Nassau Resort & Crystal Palace Casino, 447 F.3d
1357, 1361 (11th Cir. 2006). In Meier, the district

26a
court determined that due process prevented the exercise of personal jurisdiction based on the imputation
of a subsidiary’s forum contacts to a parent company.
288 F.3d at 1268. We reversed the district court, holding that “if the subsidiary is merely an agent through
which the parent company conducts business in a particular jurisdiction or its separate corporate status is
formal only and without any semblance of individual
identity, then . . . the [parent] will be said to be doing
business in the jurisdiction through the subsidiary for
purposes of asserting personal jurisdiction.” Id. at
1272 (quoting Wright & Miller, Fed. Prac. & Proc. §
1069.4 (3d ed. 2002)).
Under the prior panel precedent rule, “a prior
panel’s holding is binding on all subsequent panels
unless and until it is overruled or undermined to the
point of abrogation by the Supreme Court or by this
court sitting en banc.” United States v. Archer, 531
F.3d 1347, 1352 (11th Cir. 2008). Meier is binding
here. While we recognize that Meier involved a subsidiary and a parent company—instead of a corporation and an individual shareholder—that distinction
is not meaningful for the purposes of this analysis.
The Fifth Circuit’s discussion of the issue helps illustrate this point:
[F]ederal courts have consistently acknowledged that it is compatible with due process
for a court to exercise personal jurisdiction
over an individual or a corporation that would
not ordinarily be subject to personal jurisdiction in that court when the individual or corporation is an alter ego or successor of a corporation that would be subject to personal jurisdiction in that court. The theory underlying
these cases is that, because the two corpora-

27a
tions (or the corporation and its individual alter ego) are the same entity, the jurisdictional
contacts of one are the jurisdictional contacts
of the other for the purposes of the International Shoe due process analysis.
Patin v. Thoroughbred Power Boats Inc., 294 F.3d 640,
653 (5th Cir. 2002). Regardless of whether the actors
are two companies, or a company and an individual,
the rule from Meier is that where the apparent forum
contacts of one actor are really the forum contacts of
another, it is consistent with due process to impute
those contacts for personal jurisdiction purposes. 288
F.3d at 1272.
And the Supreme Court’s decision in Walden v.
Fiore did not abrogate our precedent. In fact, it did not
even mention veil piercing. True, Walden emphasized
that personal jurisdiction must be based on “contacts
that the ‘defendant himself’ creates with the forum.”
571 U.S. at 284 (quoting Burger King, 471 U.S. at
475). But the jurisdictional veil piercing we endorsed
in Meier is based on the rationale that when a defendant exerts a high degree of control over an entity, the
contacts created by the entity are, in reality, created
by the defendant. See Patin, 294 F.3d at 653. We do
not find that proposition to be irreconcilable with Walden. 10 So, under Meier, Relators could establish that
Our conclusion is reinforced by the fact that the rule Edwards cites from Walden was already well-established at
the time we decided Meier. See Rush v. Savchuk, 444 U.S.
320, 332 (1980) (“The requirements of International
Shoe. . . must be met as to each defendant over whom a
state court exercises jurisdiction.”); Keeton v. Hustler Magazine, Inc., 465 U.S. 770, 781 n.13 (1984) (“Each defendant’s contacts with the forum State must be assessed individually.”).
10

28a
the court had personal jurisdiction over Edwards by
sufficiently pleading that it could pierce MIC’s corporate veil and impute MIC’s forum contacts to Edwards.
Relators did so. To establish personal jurisdiction
over a nonresident defendant, the plaintiff has the
burden of establishing a prima facie case by presenting enough evidence to withstand a motion for directed verdict. Meier, 288 F.3d at 1268–69. The defendant must then submit affidavits to the contrary in
order to shift the burden back to the plaintiff. Id. at
1269. To the extent the allegations in the complaint
are uncontroverted by the defendant’s evidence, the
court construes the allegations as true. Morris v. SSE,
Inc., 843 F.2d 489, 492 (11th Cir. 1988). And “where
the evidence presented by the parties’ affidavits and
deposition testimony conflicts,” the court must draw
all reasonable inferences in the plaintiff’s favor. Id.
The Fourth Amended Complaint includes allegations that Edwards unilaterally controlled MIC, ignored corporate formalities, and commingled his personal assets with corporate assets. The result, Relators allege, was that “MIC was a corporation in name
only” and that “Edwards is, legally, MIC.” Based on
these allegations, Relators established a prima facie
case that MIC was Edwards’s alter ego, so that MIC’s
suit-related forum contacts were really Edwards’s.
To rebut Relators’ prima facie case, Edwards testified by affidavit that he had never personally originated loans on behalf of MIC in the state of Georgia,
and that he had never personally attested to the legality of fees charged by MIC on the Georgia loans at issue in this FCA case. He further testified that “[d]ecisions about distributions from MIC to its shareholders
are made by and among the officers and directors of

29a
MIC in Florida.” But as the district court’s thorough
analysis demonstrates, deposition testimony from
MIC employees supported Relators’ contention that
Edwards dominated decision making, and that corporate formalities were often not observed. To the extent
Edwards’s affidavit testimony conflicted with other
evidence, all reasonable inferences must be made in
Relators’ favor. Morris, 843 F.2d at 492. Therefore,
Edwards’s testimony did not rebut Relators’ prima facie case for piercing MIC’s veil and imputing its forum
contacts to Edwards. As a result, we affirm the district
court’s ruling that Edwards is subject to personal jurisdiction in Georgia.
D. Fraudulent Transfer
Finally, we turn to the second issue Relators appeal: whether the district court correctly held that Relators lack Article III standing to pursue a state law
claim against Edwards under Georgia’s Uniform Voidable Transfers Act (UVTA). After careful review, we
affirm.
It is well-established that a plaintiff must satisfy
three requirements to establish Article III standing.
See Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992).
First, there must be an “injury in fact” that is both
“concrete and particularized,” as well as “actual or imminent, not conjectural or hypothetical.” Id. (internal
quotation marks omitted). “Second, there must be a
causal connection between the injury and the conduct
complained of—the injury has to be fairly . . .
trace[able] to the challenged action of the defendant.”
Id. (alteration in original) (internal quotation mark
omitted). “Third, it must be likely, as opposed to
merely speculative, that the injury will be redressed
by a favorable decision.” Id. at 561 (internal quotation
marks omitted).

30a
The Supreme Court has addressed the first of
those requirements—injury in fact—in the context of
relators bringing qui tam actions under the FCA. See
Vt. Agency of Nat. Res. v. United States ex rel. Stevens,
529 U.S. 765 (2000). There, the Court explained that
a relator does not have standing to pursue a qui tam
action based on his own injury in fact. Id. at 772–73.
Before obtaining a judgment, a relator’s interest is
comparable to that of a person “who has placed a wager upon the outcome” of a case. Id. at 772. So how,
then, do relators have standing to bring qui tam actions? The answer, Stevens tells us, is found in the
common law doctrine of assignment: an assignee has
standing to vindicate the rights of an assignor. Id. at
773. As the doctrine of assignment applies in this context, the FCA’s qui tam provision “effect[s] a partial
assignment” of the government’s claim to the relator.
Id. And only as an assignee does the relator have
standing to pursue the qui tam action. Id.
But because the assignment to relators is “partial”
rather than total, relators are not assigned all of the
government’s rights associated with a particular action. Id. The FCA assigns the narrow right to “bring a
civil action for a violation of section 3729 for the person and for the United States Government.” 31 U.S.C.
§ 3730(b)(1). It does not assign relators the right to
pursue additional claims that arise from, or are related to, the qui tam action. Indeed, Stevens states
that “an interest that is merely a ‘byproduct’ of the
[FCA] suit itself cannot give rise to a cognizable injury
in fact for Article III standing purposes.” 529 U.S. at
773. As Relators conceded at oral argument, that is
what we have here. See Oral Argument Recording at
22:52–23:11 (Oct. 21, 2020). Therefore, the FCA itself
does not confer standing on Relators to pursue the
fraudulent transfer claim.

31a
Relators argue, however, that they can show an
injury in fact, notwithstanding Stevens, because they
base their fraudulent transfer claim on their own injury in fact suffered as creditors under Georgia’s
UVTA. See O.C.G.A. § 18-2-70, et seq. That statute
gives creditors the right to avoid fraudulent transfers
and to obtain an injunction against the debtor to prevent further disposition of property. Id. § 18-2-77(a).
And because the UVTA applies pre-judgment,
Relators argue that they have standing under
that statute as pre-judgment creditors of Edwards.
See id. § 18-2-71(3) (“‘Claim’ means a right to payment, whether or not the right is reduced to judgment
. . . .”).
At oral argument in this case, Relators argued
that the Stevens Court envisioned this scenario when
it noted that Congress could “define new legal rights,
which in turn will confer standing to vindicate an injury caused to the claimant.” 529 U.S. at 773. Picking
up on that language, Relators argue that, through the
UVTA, the Georgia legislature conferred a new legal
right to assert a pre-judgment claim that is contingent
upon the underlying FCA claim.
It is true that Congress can take “concrete, de
facto injuries that were previously inadequate in law”
and “elevat[e] [them] to the status of legally cognizable injuries.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540,
1549 (2016) (citing Lujan, 504 U.S. at 578) (first alteration in original). We can assume for purposes of our
decision (without deciding) that a state legislature can
do the same. And when courts analyze what “constitutes injury in fact,” legislative judgment can play an
“important role[]” in that determination. Id. at 1547–
48. But legislatures cannot simply create an injury in
fact where there is no concrete injury. “Injury in fact

32a
is a constitutional requirement, and ‘it is settled that
Congress cannot erase Article III’s standing requirements by statutorily granting the right to sue to a
plaintiff who would not otherwise have standing.’” Id.
(internal citation and brackets omitted). §
This means (on our assumption) that the Georgia
legislature could give relators the right to pursue a
fraudulent transfer claim only if relators have a concrete interest in a claim that is a byproduct of the underlying suit. Stevens makes clear that they do not. 11
529 U.S. at 773. Consequently, it would be inconsistent with Spokeo to hold that the UVTA can create
a concrete injury where none existed. To do so would
be to “erase Article III’s standing requirements” by
finding that the Georgia legislature “statutorily
grant[ed] the right to sue to a plaintiff who would not
otherwise have standing.” Spokeo, 136 S. Ct. at 1547–
48. Accordingly, Relators cannot establish standing
under Georgia’s UVTA. Therefore, we affirm the district court’s holding that Relators lack standing to assert a fraudulent transfer claim against Edwards.
AFFIRMED IN PART, REVERSED IN PART,
AND REMANDED.

This is not to say, of course, that pre-judgment creditors
cannot establish Article III standing based on their own
damages claim. For example, in Enterprise Financial
Group, Inc. v. Podhorn, 930 F.3d 946 (8th Cir. 2019), cited
by Relators, a pre-judgment creditor had Article III standing based on its own damages claim, rather than a damages claim that the government had partially assigned to
it.

11

33a
APPENDIX B

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA ATLANTA DIVISION
UNITED STATES OF
AMERICA ex rel., VICTOR E.
BIBBY and BRIAN J.
DONNELLY,
Relators / Plaintiffs,
CIVIL ACTION NO.
1:12-CV-4020-AT

v.
MORTGAGE INVESTORS
CORPORATION and WILLIAM L. “BILL” EDWARDS,
Defendants.
ORDER

I.

INTRODUCTION

The instant action, arising under the False Claims
Act (“FCA”), 31 U.S.C. Section 3729 et seq., began its
life on March 3, 2006 1 with a thirty-one (31) page

The Relators’ claims were originally filed under Docket
Number 06-cv-547. However, after many years of litigation, all but two Defendants remained given that all other
Defendants (with the exception of Wells Fargo Home Mort1

34a
Complaint 2 naming a host of mortgage lenders, including Defendant Mortgage Investors Corporation
and its principal William L. Edwards (collectively
“MIC” or “Defendants”), which, according to Relators,
defrauded the United States Government 3 through actions taken in connection with a mortgage loan refinancing program sponsored by the Department of
Veterans Affairs (the “VA”). The gravamen of Relators’ claims is that Defendants “have repeatedly violated the rules of the IRRRL [Interest Rate Reduction
Refinancing Loan] program” by “over-charg[ing] veterans, charg[ing] unallowable fees, and then deliberately conceal[ing] those facts from the VA [Veterans
Administration] to obtain taxpayer-backed guarantees for the loans” while at “the same time . . . falsely
certif[ying] to the VA, in writing, that they were not
charging unallowable fees.” FAC ¶ 5.

gage, Inc.) had settled. As such, those two cases were ultimately severed, resulting in the instant action being assigned a new Docket Number. The only other remaining
Defendant, Wells Fargo Home Mortgage Inc., settled its
claims in 2017 . See 06-cv-547 at (Doc. 1336) (Stipulation of
Dismissal). Thus, MIC and Edwards are the last Defendants remaining in this epic saga.
2
The operative pleading in this case is the Fourth
Amended Complaint (“FAC”) (Doc. 383).
3
The Government contemplated whether to intervene in
this action for approximately five years and in that regard
requested a total of eighteen extensions of time within
which to determine whether to do so. However, on September 30, 2011, the Government declined to intervene in this
case leaving Relators to forge ahead on their own. See 06cv-547, (Doc. 59).

35a
In the almost thirteen years since this case was
filed it was assigned to multiple district court judges 4
and amassed a dizzying array of docket entries (especially when taking into consideration filings made
prior to this case being severed). Moreover, in light of
the litigation methods employed and intractability of
the parties throughout the course of this action, the
Court has had little choice but to take on the role of a
hyper-vigilant discovery referee. Thus, after refereeing this case for more than seven (7) consecutive years
and working on various aspects with multiple law
clerks, the Court will address the final dispositive motion as to the issue of liability.
Presently before the Court is Defendants’ motion
for summary judgment in accordance with Fed. R. Civ.
P. 56 [Doc. 955]. Relators oppose the motion in all respects (Doc. 1004). After reviewing the evidentiary
record, the parties’ briefs as well as applicable law and
for the reasons that follow, the Court is constrained to
find that Defendants’ motion must be GRANTED
based upon recent developments in applicable FCA
law.
Notwithstanding this ultimate finding, one final
introductory remark is in order—namely that this action is rife with disputed issues of fact which, in gen-

The case was first overseen by Judge Marvin H. Shoob
for approximately the first five years, during which it remained sealed and largely dormant while the government
determined whether it would intervene. The case, apparently a proverbial “hot potato” was then transferred, in
quick succession before landing at the feet of the undersigned, who has dutifully overseen the matter from December 16, 2011 through the present—a period spanning over
seven (7) years.
4

36a
eral, would necessitate the need for this case to be decided at trial as opposed to summary judgment. However, while the parties vehemently dispute factual issues relating to every element of the FCA, the Court
begins (and as it turns out, ends) its analysis with the
element of materiality since, upon conducting an assiduous review of the record, the facts bearing upon
that element represent the Achilles heel in Relators’
case when viewed through the prism of the Supreme
Court’s decision in Universal Health Services, Inc. v.
United States, 136 S. Ct. 1989, 1996, 195 L. Ed. 2d 348
(2016) and its circuit court progeny. Put another way,
this case, in light of the record presently before the
Court, fails to survive summary judgment not because
no fact issues exist (they do) but rather, because the
facts relevant to materiality, as presented and taken
in the light most favorable to Relators as the non-moving party, simply cannot surmount the “rigorous” and
“demanding” materiality threshold required by Universal Health. Universal Health Servs., Inc., 136 S. Ct.
at 2003; see id. at 1996. Thus, when analyzed through
the lens of Universal Health, the Court is unable to
find that the facts as presented here raise a genuine
material issue warranting a trial. Rather, the stringent materiality standard espoused by the Supreme
Court chokes the life out of Relators’ case and mandates the end of this action, despite the abundance of
factual disputes.
II. BACKGROUND
A. Facts
While the Court would normally set forth those
facts as contained in the parties’ respective Rule 56.1
Statements for which no disputes exists, such a task
would be a fool’s errand under the present circum-

37a
stances. For example, of the 303 non-succinct paragraphs comprising Defendants’ Statement of Undisputed Material Facts (“Defs.’ 56.1”) Relators have interposed objections to the majority of Defendants’ purportedly “undisputed” factual statements leaving only
the most basic of facts as actually undisputed. After
conducting some rudimentary math, it appears that
Relators have lodged objections to 198 of the total 303
paragraphs comprising Defendants’ 56.1 Statement
which translates to approximately sixty-five percent
(65%) or just under two-thirds. Compare Defs.’ 56.1
with Relators’ Response to Defendant Mortgage Investors Corporation’s Statement of Undisputed Material Facts (“Rels.’ 56.1 Resp.”). Likewise, of the 82 paragraphs comprising Relators’ Statement of Additional
Material Facts (“Rels.’ Addtl. 56.1”), Defendants have
interposed objections to all but three (3) factual statements which translates to approximately ninety-six
percent (96%). Compare Rels.’ Addtl. 56.1 with Mortgage Investors Corporation’s Responses and Objections to Relators’ Statement of Additional Facts
(“Defs.’ 56.1 Resp.”).
The Court points out that Local Civil Rule 56.1
B.(1) provides explicitly that “[a] movant for summary
judgment shall include with the motion and brief a
separate, concise, numbered statement of the material facts to which the movant contends there is no
genuine issue to be tried. Each material fact must be
numbered separately and supported by a citation to
evidence proving such fact.” Id. 56.1 B.(1) (emphasis
added); see Cheatham v. DeKalb Cty., Georgia, 682 F.
App’x 881, 884 (11th Cir. 2017). While neither of the
parties’ submissions can be characterized as “concise,”
or otherwise a model of compliance, it is Defendants’
56.1 Statement totaling 64 pages and 303 paragraphs
which expressly contravenes the letter and spirit of

38a
the Local Rule. Indeed, while the Rule is intended to
streamline the Court’s task of determining whether a
question of material fact exists warranting a trial,
submissions such as those in the instant case needlessly complicate matters. This is because the parties’
56.1 statements, at bottom, amount to no more than a
“he said, she said” account in light of the mass-objections being volleyed back and forth. This, in turn,
places the Court in the untenable position of straining
its limited judicial resources to conduct an assiduous
review of the massive underlying record in this case.
The Court does not have the time or inclination to
serve as a 56.1 Statement referee in order to untangle
the knots tied by the parties themselves by virtue of
either the profundity of their differences as to the
facts at issue or their own intractability, or both. Rather, in light of the monumental amount of objections
on both sides, the Court will disregard the parties’ respective 56.1 Statements (at least with respect to
those facts which are disputed) and will instead cite
only to the underlying record which consists of the
source material.
Based upon the Court’s position, given the parties’
familiarity with the over-arching facts of this case and
because the Court has previously set forth the factual
contours at length in prior Orders, the facts will not
be repeated here. The reader is therefore directed to
the Court’s November 19, 2012 Order (Doc. 30) adjudicating Defendants’ first motion for summary judgment as well as the Court’s September 27, 2017 Order
(Doc. 865) denying Defendants’ Motion for Reconsideration, for an explication of the general facts of this
case. The background and facts as set forth in these

39a
previous Orders are hereby incorporated by reference. 5
B. The False Claims Act Generally
The driving catalyst for the conception and ultimate passage of the FCA was the Civil War, which
necessarily created a thriving market for all manner
of weapons, supplies and provisions required by the
United States government to fight effectively in the
conflict. See United States v. Bornstein, 423 U.S. 303,
309, 96 S. Ct. 523, 528, 46 L. Ed. 2d 514 (1976) (“The
Act was originally aimed principally at stopping the
massive frauds perpetrated by large contractors during the Civil War.”). However, this burgeoning market
had the unintended effect of encouraging unscrupulous contractors to engage in fraud upon the United
States. See James E. Nagle, A History of Government
Contracting 19 (1999) (quoting E. Wayne Camp, To
the Army at Pleasure (1984)). Congress, recognizing
the problem, formed a committee with the aim of investigating “the gross waste and squandering of the
The facts as set forth in the Court’ previous Orders are
meant only to provide the reader with the proper context.
Therefore, such facts should not be construed as factual
findings of the Court. See Priester v. City of Riviera Beach,
Fla., 208 F.3d 919, 926 (11th Cir. 2000) (“‘[F]acts,’ as accepted at the summary judgment stage of the proceedings,
may not [ultimately] be the ‘actual’ facts of the case.”); Morton v. Kirkwood, 707 F.3d 1276, 1280 (11th Cir. 2013). Rather, the Court gleans the facts from the evidence comprising the record and construes those facts in a light most favorable to the non-moving party. Moreover, to the extent
particularized facts bear upon the analysis of the individual elements comprising the claims in this case, such facts
(and the evidence upon which those facts are derived) shall
be set forth as necessary.
5

40a
public funds.” 1 Fred Albert Shannon, The Organization and Administration of the Union Army, 1861-65,
at 55–56, 58 (1965) (quoting Tomes, Fortunes of War,
29 Harper’s Monthly Mag. 228 (1864)). In conducting
its inquiry, this congressional committee unearthed
“an astounding amount of illegal and fraudulent activities . . . Through haste, carelessness, or criminal
collusion, the state and federal officers accepted almost every offer and paid almost any price for the
commodities, regardless of character, quality, or
quantity . . . ‘For sugar it [the government] often got
sand; for coffee, rye; for leather, something no better
than brown paper; for sound horses and mules, spavined beasts and dying donkeys; and for serviceable
muskets and pistols, the experimental failures of sanguine inventors, or the refuse of shops and foreign armories.’” Id.; see United States v. McNinch, 356 U.S.
595, 599, 78 S. Ct. 950, 952, 2 L. Ed. 2d 1001 (U.S.
1958) (“The False Claims Act was originally adopted
following a series of sensational congressional investigations into the sale of provisions and munitions to
the War Department. Testimony before the Congress
painted a sordid picture of how the United States had
been billed for nonexistent or worthless goods,
charged exorbitant prices for goods delivered, and
generally robbed in purchasing the necessities of
war.”) (citing H.R. Rep. No. 2, Part 2, 37th Cong., 2d
Sess.).
In the face of such widespread misconduct, Congress determined that “more stringent provisions are
required for purpose of punishing and preventing
these frauds.” Cong. Globe, 37th Cong., 3d Sess. 952
(1863) (remarks of Sen. Howard); see McNinch, 356
U.S. at 599, 78 S. Ct. at 952-53, 2 L. Ed. 2d 1001 (recognizing that “Congress wanted to stop th[e] plundering of the public treasury.”). This ultimately led to the

41a
introduction of Senate Bill 467 on January 16, 1863.
Cong. Globe, 37th Cong., 3d Sess. 348 (1863). Significantly, the bill contained a qui tam 6 provision which
authorized private persons to file suit on behalf of the
United States. Id. at 953. The theory behind this provision, as explained by Senator Howard, was the “oldfashioned idea of holding out temptation and ‘setting
a rogue to catch a rogue,’ which is the safest and most
expeditious way I have ever discovered of bringing
rogues to justice.” Id. at 955-56. After striking a provision subjecting dishonest contractors to martial law,
Congress adopted the bill. Id. at 1321, 1427. The original FCA “imposed civil and criminal liability for
fraud on the government, subjecting violators to double damages, forfeiture, and imprisonment.” United
States ex rel. Hunt v. Cochise Consultancy, Inc., 887
F.3d 1081, 1085–86 (11th Cir.), cert. granted sub nom.
Cochise Consultancy, Inc. v. U.S. ex rel. Hunt, 139 S.
Ct. 566 (2018); see Act of Mar. 2, 1863, ch. 67, 12 Stat.
696.
Since its initial passage in 1863, the FCA has been
amended multiple times. Cochise Consultancy, Inc.,
887 F.3d at 1086. One of the most significant of these
amendments was passed in the wake of the Supreme
Court’s decision in U.S. ex rel. Marcus v. Hess, 317
U.S. 537, 63 S. Ct. 379, 87 L. Ed. 443 (1943). In Marcus, the Supreme Court was faced with the issue of
whether the FCA permitted suits by relators “having
“Qui tam is short for the Latin phrase qui tam pro domino rege quam pro se ipso in hac parte sequitur, which
means ‘who pursues this action on our Lord the King’s behalf as well as his own.’ The phrase dates from at least the
time of Blackstone.” Vermont Agency of Nat. Res. v. U.S.
ex rel. Stevens, 529 U.S. 765, 769, 120 S. Ct. 1858, 1860,
146 L. Ed. 2d 836 (2000) (internal citation omitted).
6

42a
no information of their own to contribute, but who
merely plagiarized information in indictments returned in the courts, newspaper stories or congressional investigations.” U.S. v. Burmah Oil Co. Ltd.,
558 F.2d 43, 46 n.1 (2d Cir. 1977). Specifically, in Marcus, the Department of Justice sought to persuade the
Court that the FCA prohibited suits where a relator
did no more than copy the allegations contained in a
parallel criminal indictment into a civil complaint alleging violations of the FCA. See Marcus, 317 U.S. at
545-46, 63 S. Ct. at 385-86, 87 L. Ed. 443 (1943). 7
However, after considering the plain meaning of the
statutory text, the Court found the Government’s arguments unpersuasive. Id. at 546, 63 S. Ct. at 385, 87
L. Ed. 443. Instead, the Court determined that “[n]either the language of the statute nor its history lends
support to the contention made by respondents and
the government. ‘Suit may be brought and carried on
by any person’, says the Act, and there are no words
of exception or qualification such as we are asked to
find.” Id. In rejecting the Government’s policy arguments, the Court stressed that “the entire force of
these considerations is directed solely at what the government thinks Congress should have done rather
than at what it did . . . [and that] the trouble with
[this] argument[ ] is that [it is] addressed to the wrong
forum. Conditions may have changed [since the FCA
was passed], but the statute has not.” Id at 546-47,
63 S. Ct. at 385-86, 87 L. Ed. 443. Also important, in
the Court’s view, was the fact that
“As originally enacted in 1863, the FCA placed no restriction on the sources from which a qui tam relator could
acquire information on which to base a lawsuit.” Schindler
Elevator Corp. v. U.S. ex rel. Kirk, 563 U.S. 401, 412, 131
S. Ct. 1885, 1893, 179 L. Ed. 2d 825 (2011).
7

43a
one of the chief purposes of the Act, which was
itself first passed in war time, was to stimulate action to protect the government against
war frauds. To that end, prosecuting attorneys were enjoined to be diligent in enforcement of the Act’s provisions, and large rewards were offered to stimulate actions by private parties should the prosecuting officers be
tardy in bringing the suits.
Marcus, Id. at 547, 63 S. Ct. at 386, 87 L. Ed. 443.
Thus, to the extent the Government sought to effect a
change to the FCA, its arguments would have to be
addressed to Congress in the first instance.
Not surprisingly, shortly after his arguments
were rebuffed by the Supreme Court, the Attorney
General voiced his concerns directly to Congress,
which, in turn, began to take steps to amend the FCA.
One of the earliest House bills to be introduced was
H.R. 1203, which contemplated eliminating all private actions seeking damages and penalties. 89 Cong.
Rec. 194 (1943). While the House quickly passed the
bill, id. at 2800-01, H.R. 1203 ultimately encountered
opposition by some members of the Senate Judiciary
Committee, to which it had been referred for further
review. S. Rep. No. 291, Senate Comm. On the Judiciary, 78th Cong., 1st Sess. (1943). Specifically, some
Committee members were troubled by the fact that
the bill, in its current state, would dissuade bona fide
whistleblowers from sharing information concerning
potential fraud with the Government. Id. Ultimately,
the Committee determined that the FCA’s qui tam
component should not be completely jettisoned. Rather, to strike a balance, the Committee put forth an
amendment to H.R. 1203 aimed at allowing only private suits where the individual was the “original

44a
source” of the information giving rise to the action,
where that person had provided the Attorney General
with notice of the suit, prior to filing, and notwithstanding such notice, the Attorney General declined
to prosecute the action. 89 Cong. Rec. 7570.
Debate on the Senate floor regarding these proposed FCA amendments proved divisive. On one side,
Senator Van Nuys, Chairman of the Judiciary Committee stated that, in his view, “the old statute had
served a useful purpose . . . but conditions have
changed, and today that statute has become one of the
worst sources of racketeering since the days of Al Capone in the prohibition era.” Id. at 7,571. However,
other members were not so convinced. Indeed, Senator William Langer retorted that “the present statute
now on the books is a most desirable one. What harm
can there be if 10,000 lawyers in America are assisting
the Attorney General of the United States in digging
up war frauds?” Id. at 7,606. In the end, the Senate
passed the measure as amended by the Committee.
Nevertheless, the House disagreed with the Senate
amendments which resulted in the bill being conferenced—which ultimately resulted in the “original
source” provision being stricken. Id. at 10,844. The bill
emerged from conference with both House and Senate
approval. Id. at 10,844-49 (House Approval); Id. at
10,752 (Senate Approval).
The 1943 amendments ushered in several important changes to the FCA including: (1) providing
the Department of Justice with authority to take over
a case initially brought by a relator; (2) requiring a
relator to provide all supporting documentation to the
Department of Justice contemporaneously with the
filing of the complaint; (3) permitting the Department
of Justice a period of 60 days to determine whether to

45a
intervene in the suit (and, in the event it chose to intervene, cutting off any role of the relator in the litigation); (4) depriving courts of jurisdiction over FCA
actions “based upon evidence or information in the
possession of the United States, or any agency, officer
or employee thereof, at the time such suit was
brought[;]” 8 and (5) reducing a relator’s share in any
recovery obtained and failing to guarantee any minimum reward at all. Act of December 23, 1943, ch. 377,
57 Stat. 608, codified as amended at 31 U.S.C. §§ 232
to 235 (1976).
The extensive changes to the FCA dictated by the
1943 amendments caused a proverbial deep freeze in
FCA litigation in the ensuing decades. Indeed, between 1943 and 1986 “relator suits under the statute
averaged six per year.” Elletta Sangrey Callahan &
Terry Morehead Dworkin, Do Good and Get Rich: Financial Incentives for Whistleblowing and the False
Claims Act, 37 Vill. L. Rev. 273, 318 (1992). At the
same time, fraud on the Government continued to increase at such a pace that by 1981, the General Accounting Office (“GAO”) characterized it as “widespread.” General Accounting Office, Fraud in Government Programs:—How Extensive is It?—How Can it
Be Controlled ii (1981). However, despite the pervasiveness of such fraud and the scholarly interest in revitalizing and strengthening the FCA to combat such
knavery, see, e.g., Erwin Chemerinsky, Controlling
Fraud Against the Government: The Need for Decentralized Enforcement, 58 Notre Dame L. Rev. 995
(1983) (recognizing that citizen suits to ferret out and
prosecute fraud are an integral component of controlling fraud to increase Government’s resources, to
This provision is commonly referred to as the “jurisdictional bar.”
8

46a
bring to light information the Government would not
otherwise receive, and to control corrupt officials, and
concluding that the False Claims Act should be
amended to permit these suits), Congress sat idle until 1985, at which time Senators Charles Grassley,
Carl Levin and Dennis DeConcini introduced S.B.
1562. 131 Cong. Rec. 22,266 (1985).
S.B. 1562 was joined by S.B. 1673, a similar measure backed by the Reagan administration, and hearings were held on both of these bills by the Committee
on Administrative Practice and Procedure of the senate Committee on the Judiciary. See False Claims Reform Act: Hearing Bef. the Subcomm. on Admin. Practice and Procedure of the Senate Comm. on the Judiciary, 99th Cong., 1st Sess. (Sept. 17, 1985). Meanwhile, the House took up a its own bill, H.R. 3317,
which similarly received a hearing by the Subcomittee
on Administrative Law and Governmental Relations
of the House Committee on the Judiciary. Hearings
Bef. the Subcomm. on Admin. Law and Govern. Rel.
of the House Comm. on the Judiciary, 99th Cong., 2d
Sess. (Feb. 5, 1986).
During its hearing, the Senate Committee heard
testimony from the Department of Defense Inspector
General that “45 of the 100 largest defense contractors, including 9 of the top 10, were under investigation for multiple fraud offenses.” S. Rep. 99-345
(1986) as reprinted in U.S.C.C.A.N. 5266, 5267. However, this revelation, the Senate Committee learned,
did “not include, of course, the cost of undetected fraud
which is probably much higher because weak internal
controls allow fraud to flourish.” Id., as reprinted in
U.S.C.C.A.N. at 5268 (citing the 1981 GAO report on
fraud). As a result of this and other testimony, the
Committee ultimately determined that “perhaps the
most serious problem plaguing effective enforcement

47a
is a lack of resources on the part of Federal enforcement agencies,” which results in “‘screening decisions.’” 126 Cong. Rec. 4580 (1980); S. Rep. No. 96-615
(1981). As a result, “[a]llegations that perhaps could
develop into very significant cases are often left unaddressed at the outset due to a judgment that devoting scarce resources to a questionable case may not be
efficient. And with current budgetary constraints, it is
unlikely that the Government’s corps of individuals
assigned to anti-fraud enforcement will substantially
increase.” Id. Thus, the proposed amendments to the
FCA, in large part attempted to close the resource gap
by augmenting the Government’s forces with that of
the private citizenry. Id. In addition, the Committee
noted that “[s]ince the act was last amended in 1943,
several restrictive court interpretations of the act
have emerged which tend to thwart the effectiveness
of the statute” and the proposed amendments were
“aimed at correcting restrictive interpretations of the
act’s liability standard, burden of proof, qui tam jurisdiction and other provisions in order to make the
False Claims Act a more effective weapon against
Government fraud.” S. Rep. 99-345, as reprinted in
U.S.C.C.A.N. at 5269.
After the House and Senate bills were reconciled,
Congress passed the False Claims Amendments Act of
1986, which was then signed into law by President
Reagan. False Claims Amendments Act of 1986, Pub.
L. No. 99-562, 100 Stat. 3153, codified as amended at
31 U.S.C. §§ 3729 to 3733 (1994); 22 Weekly Comp.
Pres. Doc. 1499 (Nov. 3, 1986). The resulting FCA
amendments were extensive and included the following: (1) all qui tam actions were required to be filed
under seal for 60 days and served on the United States
to ensure no interference in an ongoing Government
investigation; (2) the Government would retain the

48a
right to intervene at a later stage of a qui tam action
in the event it had initially declined intervention so
long as it could establish “good cause;” (3) in the event
of Government intervention primary responsibility for
prosecution remained with the Government and it
would “not be boumd by an act of the person bringing
the action;” (4) in an intervened case, the qui tam relator would still be at liberty to participate subject to
certain limitations; (5) instituting a prohibition on
lawsuits “based upon allegations or transactions in a
. . . [government proceeding] or investigation, or from
the news media, unless . . . the person bringing the
action is an original source of the information;” (6)
awarding attorney’s fees to defendants who prevailed
in an FCA suit found by a court to be “clearly frivolous,
clearly vexatious, or brought primarily for purposes of
harassment;” (7) elimination of purely discretionary
awards and calibration of rewards to align with the
contribution of the relator; and (8) a right of action for
those employees who report fraud and suffer retaliation as a result. See generally 31 U.S.C. § 3730.
Congress briefly revisited the FCA again in 1988
over concerns regarding the ability of a culpable relator to obtain a windfall recovery. In offering the
amendment, Senator Grassley explained that “the
amendment I offer today is a clarification that Congress did not intend that the qui tam amendments
would encourage individuals to first be a party to a
false claims practice or fraud and later bring a qui tam
action against other participants or their employer
with the expectation of receiving a substantial share
of the suit's recovery.” 134 Cong. Rec. 31,530 (1986).
This amendment, passed as part of the Major Fraud
Act of 1988, Pub. L. No. 100-700, § 9, 102 Stat. 4631,
4638 (1988), codified at 31 U.S.C. § 3730(d)(3), created
an additional subsection in the FCA which provided

49a
that in the event a relator “planned and initiated the
violation . . . upon which the action was brought” a
court has the discretion to reduce the relator’s reward.
Pub. L. No. 100-700, § 9, 102 Stat. at 4638-39. Finally,
if a relator was convicted of criminal conduct as concerned the violation a reward could be reduced to zero
and the case could be dismissed, without prejudice. Id.
Congress did not again revisit the FCA until 2009
when, in the wake of the economic crisis, it passed
what is known as the Fraud Enforcement and Recovery Act (“FERA”). FERA embodied Congress’ intent to
“reinvigorate our Nation’s capacity to investigate and
prosecute the kinds of financial frauds that have so
severely undermined our financial markets and hurt
so many hard working people in these difficult economic times.” S. Rep. No. 111-10, at 3 (2009), as reprinted in U.S.C.C.A.N. 430, 431. While the legislation amended various aspects of criminal laws housed
in Title 18 of the United States Code, as is relevant to
this discussion, FERA “improve[d] one of the most potent civil tools for rooting out waste and fraud in Government–the False Claims Act.” Id. at 4, 2009, as reprinted in U.S.C.C.A.N. at 433. 9 Notwithstanding the
FERA’s amendments to the FCA were the result of Congress’ conclusion that the “effectiveness of the False Claims
Act has recently been undermined by court decisions which
limit the scope of the law and, in some cases, allow subcontractors paid with Government money to escape responsibility for proven frauds. The False Claims Act must be corrected and clarified in order to protect from fraud the Federal assistance and relief funds expended in response to
our current economic crisis.” S. Rep. No. 111-10, at 4
(2009), as reprinted in U.S.C.C.A.N. at 433. Specifically,
the FCA amendments had the purpose of “clarify[ing] and
correct[ing] erroneous interpretations of the law that were
9

50a
myriad number of amendments, at its core, the FCA
still remains focused on prohibiting the “making [of]
false claims for payment to the United States,” Cochise Consultancy, Inc., 887 F.3d at 1086 (citing 31
U.S.C. § 3129(a)). However, the FCA no longer imposes criminal penalties. Rather, the present iteration
provides for only “civil liability, which subjects [violators] to treble damages and civil penalties.” Id. at
1086. 10
C. Regulatory Overview
1.

Interest Rate Reduction Refinancing
Loans

A veteran, in accordance with the statutory authority set forth in 38 U.S.C. §§ 3710(a)(8), (a)(9)(B)(i)
and (a)(11), “may refinance an existing VA guaranteed, insured, or direct loan to reduce the interest rate
payable on the existing loan[.]” 38 C.F.R. § 36.4307(a).
This type of loan is referred to as an Interest Rate Reduction Refinancing Loan (“IRRRL”). See generally 38
C.F.R. § 36.4307; MIC Exhibit (“Ex.”) 2, VA Pamphlet
decided in Allison Engine Co. v. United States ex rel. Sanders, 128 S. Ct. 2123 (2008), and United States ex. rel. Totten
v. Bombardier Corp, 380 F.3d 488 (D.C. Cir. 2004).” Id. at
10, 2009 U.S.C.C.A.N. at 438. Allison had required that
plaintiffs under the FCA must prove a defendant contractor’s specific intent to induce the government approval of a
payment or false claim.
10
An FCA violator is “liable to the United States Government for a civil penalty of not less than $5,000 and not
more than $10,000, as adjusted by the Federal Civil Penalties Inflation Adjustment Act of 1990 (28 U.S.C. 2461 note;
Public Law 104-410), plus 3 times the amount of damages
which the Government sustains because of the act of that
person.” 31 U.S.C. § 3729(a); see 28 C.F.R. § 85.3(a)(9) (adjusting monetary penalties for inflation).

51a
26-7, Revised (hereinafter “VA Pamphlet”) § 6.01 (“An
IRRRL is a new VA-guaranteed loan made to refinance an existing VA-guaranteed loan, generally at
a lower interest rate than the existing VA loan, and
with lower principal and interest payments than the
existing VA loan.”). In order for a veteran to become
eligible to refinance an existing VA loan, certain regulatory requirements must be met. See id. § 36.4307
(a)(1)-(7). In light of the over-arching purpose of IRRRLs (i.e., to reduce the interest rate on an existing
VA loan), 38 C.F.R. Section 36.4307(a)(3) makes clear
that
The monthly principal and interest payment
on the new loan is lower than the principal
and interest payment on the loan being refinanced; or the term of the new loan is shorter
than the term of the loan being refinanced; or
the new loan is a fixed-rate loan that refinances a VA– guaranteed adjustable rate
mortgage; or the increase in the monthly payments on the loan results from the inclusion
of energy efficient improvements, as provided
by § 36.4339(a)(4); or the Secretary approves
the loan in advance after determining that the
new loan is necessary to prevent imminent
foreclosure and the veteran qualifies for the
new loan under the credit standards contained in § 36.4340.
38 C.F.R. § 36.4307(a)(3). Other prerequisites include:
limitations on the maximum amount of any such refinancing, refinancing in the face of a delinquent loan,
maximum dollar amount of any subsequent guarantee
as well as term limitations on the refinanced loan. See
id. § 36.4307 (a)(4)-(7). Moreover, “the interest rate reduction refinancing loan may be guaranteed without

52a
regard to the amount of guaranty entitlement available for use by the veteran, and the amount of the veteran’s remaining guaranty entitlement, if any, shall
not be charged for an interest rate reduction refinancing loan.” Id. § 36.4307(b).
2.

Charges and Fees

Based upon the fact that the “VA home loan program involves a veteran’s benefit[,] VA policy has
evolved around the objective of helping the veteran to
use his or her home loan benefit.” VA Pamphlet §
8.01. In light of this objective, “VA regulations limit
the fees that the veteran can pay to obtain a loan.” Id.
As such, “[l]enders must strictly adhere to the limitations on borrower-paid fees and charges when making
VA loans.” Id. (emphasis omitted).
In connection with a loan guaranteed or insured
by the VA, the applicable regulations prescribe that
“[n]o charge shall be made against, or paid by, the borrower incident to the making of a guaranteed or insured loan other than those expressly permitted under paragraph (d) or (e) of this section.” 38 C.F.R. §
36.4313(a). Section (d), in turn, lays out a “schedule of
permissible fees and charges [which] shall be applicable to all Department of Veteran Affairs guaranteed
or insured loans.” Id. § 36.4313(d). This schedule contains nine (9) types of permissible fees and charges,
including, as relevant to this case, charges for “[t]itle
examination and title insurance, if any.” Id. §
36.4313(d)(1)(vii); VA Pamphlet § 8.02 (Itemized Fees
and Charges Chart). Although this class of fees and
charges is generally “permissible” under the regulation, Section (d)(1) makes clear that any such charge

53a
or fee enumerated must be “reasonable and customary” in order to be permissible. 11 Id. § 36.4313(d)(1)
(stating that “[t]he veteran may pay reasonable and
customary amounts for any of the following items”).
Likewise, “[w]henever the charge relates to services
performed by a third party, the amount paid by the
borrower must be limited to the actual charge of that
third party.” Id. § 8.02.
In addition to the itemized fees and charges outlined above, “[a] lender may charge and the veteran
may pay a flat charge not exceeding 1 percent of the
amount of the loan, provided that such flat charge
shall be in lieu of all other charges relating to costs of
origination not expressly specified and allowed” in the
schedule of itemized fees set forth in Section (d)(1)(i)((ix). 38 C.F.R. § 36.4313(d)(2). This flat one-percent
charge “is intended to cover all of the lender’s costs
and services which are not reimbursable as ‘itemized
fees and charges.’” VA Pamphlet § 8.02.

38 C.F.R. Section 36.4313 does not define the terms “reasonable and customary.” According to Jeffrey London,
Deputy Director of the VA’s Loan Guaranty Service and its
Fed. R. Civ. P. 30(b)(6) witness, there is no specific definition of what constitutes a reasonable and customary charge
or fee other than the fact that the charge or fee had “to be
the actual charge.” March 9, 2016 Deposition of Jeffrey
London (“London Dep.”) (Doc. 957-14) at 33-36. Rather,
London opined that “[m]ost loan specialists, especially after reviewing . . . upwards of [a] hundred files a month
[would] get a feel for what charges are ‘customary and [reasonable],’ because you see so many loans files. So the loan
specialist is empowered to question a particular fee . . . if a
fee appears to be outside of particular dollar amount that
they typically see” and in such a case they can “question a
lender to justify that fee.” Id. at 38.
11

54a
The VA Pamphlet also sets forth examples of
“items that cannot be charged to the veteran as ‘itemized fees and charges.’” Id. Rather, “the lender must
cover any cost of [such] items out of its flat fee.” Id.
Such prohibited charges, include, but are not limited
to, “loan closing or settlement fees, document preparation fees, [p]reparing loan papers or conveyancing
fees, [a]ttorney’s services other than for title work and
loan application or processing fees.” See id.
Attorney’s fees are generally not reimbursable as
a permissible itemized charge or fee—and therefore
must be paid by the lender as part of its flat one-percent fee, unless the veteran has explicitly hired an attorney on his or her own behalf. To the extent an attorney’s services solely encompass title work, the attorney’s actual fee for such work (assuming the fee associated with such work is reasonable and customary)
may be paid by the borrower since charges or fees for
title work constitute an allowable itemized fee or
charge. See id. § 8.03 (recognizing that “[t]he lender
may not charge the borrower for attorney’s fees” but
qualifying that “[r]easonble fees for title examination
work and title insurance can be paid [ ] by the borrower” since they “are allowable itemized fees and
charges”); id. § 8.02 (stating that while attorney’s fees
are generally a disallowed itemized fee or charge, they
may be allowable solely for title work).
Importantly, the regulation pertaining to fees and
charges makes clear that “no loan shall be guaranteed
or insured unless the lender certifies to the Secretary
that it has not imposed and will not impose any
charges or fees against the borrower in excess of those
permissible” as enumerated in sections (d) and (e) of
the regulation.” 38 C.F.R. § 36.4313(a); see also VA
Pamphlet § 17.02.

55a
3.

Sanctions / Defenses

The “VA is authorized to impose sanctions against
persons or entities who take actions which are detrimental to the VA loan guaranty program. The type
and severity of the sanction imposed is based on [1]
the type of participant (for example, lender, builder,
management broker, etc.) [and 2] the nature of the actions (for example[ ], fraud, significant deficiencies in
performance, ongoing disregard for VA requirements,
and so on).” VA Pamphlet § 17 (Introduction). According to the VA Pamphlet, sanctions can take the form
of (1) withdrawal of automatic authority; (2) withdrawal of LAPP [Lender Appraisal Program] authority; (3) Debarment and Suspension; and (4) Limited
Denial of Participation. Id. §§ 17.01-.07. Specifically,
as concerns false certifications, “[a]ny lender who
knowingly and willfully makes a false certification
may be subject to civil money penalties” as well as
other sanctions, “including, but not limited to [1] debarment and suspension 12 and [2] loss of automatic
authority.” Id. § 17 (Introduction).
While the VA Pamphlet cites to 38 C.F.R. § 44.305 as authority for taking such actions, that citation is no longer
applicable. Rather, as of May 31, 2007, “[t]he Department
of Veterans Affairs (VA) [ ] mov[ed] its regulations on
nonprocurement debarment and suspension from title 38,
Code of Federal Regulations (CFR), to title 2 of the CFR,
and [ ] adopt[ed] the format established by the Office of
Management and Budget (OMB) in its interim final guidance on nonprocurement debarment and suspension, and
OMB’s final guidance on those matters.” Department of
Veterans Affairs Implementation of OMB Guidance on
Nonprocurement Debarment and Suspension, 72 Fed. Reg.
30239-01, 2007 WL 1557032, at *30239. This change had
no practical effect on the substantive aspects of the VA’s
procedures concerning debarment and suspension and
12

56a
In addition, where there exists a “willful and material misrepresentation or fraud by the lender, or by
a holder, or the agent of either, in procuring the guaranty” such behavior “shall relieve the Secretary of liability, or . . . shall constitute a defense against liability on account of the guaranty or insurance of the
loan.” 38 C.F.R. § 36.4328(a)(1).
III. STANDARD OF REVIEW
This Court may grant summary judgment only if
the record shows “that there is no genuine dispute as
to any material fact and that the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). A
factual dispute is genuine if there is sufficient evidence for a reasonable jury to return a verdict in favor
of the non-moving party. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986). A factual dispute is material if resolving the factual issue might change the
suit’s outcome under the governing law. Id. The motion should be granted only if no rational fact finder
could return a verdict in favor of the non- moving
party. Id. at 249.
When ruling on the motion, the Court must view
all the evidence in the record in the light most favorable to the non-moving party and resolve all factual disputes in the non-moving party’s favor. Reeves v. Sanderson Plumbing Prods, Inc., 530 U.S. 133, 150 (2000).
The moving party need not positively disprove the opponent’s case; rather, the moving party must establish
the lack of evidentiary support for the non-moving
party’s position. Celotex Corp. v. Catrett, 477 U.S. 317,
were administrative only. Rather, “[t]his regulatory action
[represented] a government-wide administrative initiative
for purposes of simplification and clarity, and ma[de] no
substantive changes to VA’s policy or procedures for
nonprocurement debarment and suspension.” Id.

57a
325 (1986). If the moving party meets this initial burden, in order to survive summary judgment, the nonmoving party must then present competent evidence
beyond the pleadings to show that there is a genuine
issue for trial. Id. at 324-26. The essential question is
“whether the evidence presents a sufficient disagreement to require submission to a jury or whether it is
so one- sided that one party must prevail as a matter
of law.” Anderson, 477 U.S. at 251-52.
IV. DISCUSSION 13
The Court has previously determined that Relators’ FCA claims are limited solely to a false document
cause of action under 31 U.S.C. Section 3729(a)(2). See
(Doc. 30 at 12-13 [stating that “the Court finds that
Plaintiffs’ allegations are sufficient to establish a false
document claim under § 3729(a)(2), but not a presentment claim under § 3729(a)(1))”]). That statutory section states that “[a]ny person who . . . knowingly
makes, uses, or causes to be made or used, a false record or statement to get a false or fraudulent claim paid
or approved by the Government . . . is liable to the
United States Government for a civil penalty. . . .” 31
U.S.C. § 3729(a)(2). In order to plead and prove a false
document claim under Section 3729(a)(2), Relators
“must prove (1) a false statement or fraudulent course
of conduct, (2) made with scienter, (3) that was material, causing (4) the government to pay out money or
forfeit moneys due.” Urquilla- Diaz v. Kaplan Univ.,
In conducting its analysis, the Court relies upon and
cites to the pre-FERA statutory language and numeration
since the Court has previously determined that the “May
2009 FERA amendments of the [FCA’s] statutory language
do not apply retroactively to this case.” (Doc. 30 at 12, 17)
(citing Hopper v. Solvay Pharm., Inc., 588 F.3d 1318, 1327
n. 3 (11th Cir. 2009)).
13

58a
780 F.3d 1039, 1045 (11th Cir. 2015) (internal citation
omitted). 14 The Court begins its analysis with the element of materiality.
A. Materiality
1.

Applicable Law

While materiality is a sine qua non of a claim arising under the FCA, what is the proper standard by
which that element should be analyzed? In Universal
While the pre-FERA FCA did not explicitly include a materiality requirement, courts interpreting the pre-FERA
statute have nevertheless “imposed a materiality requirement on each of the provisions of the [pre-FERA] FCA.”
U.S. ex rel. Stephens v. Tissue Sci. Labs., Inc., 664 F. Supp.
2d 1310, 1316 (N.D. Ga. 2009) (citing cases and recognizing
that “[t]he materiality requirement for FCA claims is
widely-applied and well-established”); see United States v.
Bourseau, 531 F.3d 1159, 1171 (9th Cir. 2008) (concluding
that “the [pre-FERA] FCA includes a materiality requirement” and that “[t]his holding is consistent with the law in
the First, Fourth, Fifth, Sixth and Eighth Circuits”). Notably, the post-FERA FCA explicitly includes a materiality
requirement for false certification claims and specifically
defines the term “materiality.”
See 31 U.S.C.
§ 3129(a)(1)(B) (“any person who . . . knowingly makes,
uses, or causes to be made or used, a false record or statement material to a false or fraudulent claim . . . is liable to
the United States Government for a civil penalty. . . .”; id.
§ 3129(b)(4) (defining the term “material” to mean “having
a natural tendency to influence, or be capable of influencing, the payment or receipt of money or property”). In light
of this authority and because the Eleventh Circuit in Urquilla-Diaz has included materiality as an indispensable
element of a pre-FERA FCA false certification claim, see
Urquilla-Diaz, 780 F.3d at 1045, 1052, the Court finds that
materiality is a necessary element of Relators’ claim arising under 31 U.S.C. § 3729(a)(2).
14

59a
Health Services, Inc. v. United States, the Supreme
Court, after reaffirming that in order for a “misrepresentation about compliance with a statutory, regulatory, or contractual requirement” to be actionable under the FCA it “must be material to the Government’s
payment decision,” directly answered this question.
Universal Health Servs., Inc. v. United States, 136 S.
Ct. 1989, 1996, 195 L. Ed. 2d 348 (2016).
The Court began its analysis from the premise
that because “[t]he False Claims Act is not an all-purpose antifraud statute, or a vehicle for punishing garden-variety breaches of contract or regulatory violations” the materiality standard is necessarily “demanding.” Universal Health Servs., Inc., 136 S. Ct. at
2003; see id. at 1996 (characterizing the materiality
requirement as “rigorous”); see also id. at 2004 (emphasizing that the FCA “is not a means of imposing
treble damages and other penalties for insignificant
regulatory or contractual violations”). Based upon this
observation, the Court opined that
A misrepresentation cannot be deemed material merely because the Government designates compliance with a particular statutory,
regulatory, or contractual requirement as a
condition of payment. Nor is it sufficient for a
finding of materiality that the Government
would have the option to decline to pay if it
knew of the defendant’s noncompliance. Materiality, in addition, cannot be found where
noncompliance is minor or insubstantial.
Id. at 2003. Rather, the Court stated that “under any
understanding of the concept, materiality looks to the
effect on the likely or actual behavior of the recipient
of the alleged misrepresentation.” Id. at 2002 (internal citation and alteration omitted). Thus, according

60a
to the Court, “proof of materiality can include, but is
not necessarily limited to, evidence that the defendant
knows that the Government consistently refuses to
pay claims in the mine run of cases based on noncompliance with the particular statutory, regulatory, or
contractual requirement.” Id. It follows that, “the
Government’s decision to expressly identify a provision as a condition of payment is relevant, but not automatically dispositive” since “[w]hat matters is not
the label the Government attaches to a requirement,
but whether the defendant knowingly violated a requirement that the defendant knows is material to the
Government’s payment decision.” Id. at 1996, 2003.
The Court also observed that where “the Government
pays a particular claim in full despite its actual
knowledge that certain requirements were violated,
that is very strong evidence that those requirements
are not material.” Id. at 2003. Likewise, “if the Government regularly pays a particular type of claim in
full despite actual knowledge that certain requirements were violated, and has signaled no change in
position, that is strong evidence that the requirements are not material.” Id. at 2004.
While these standards provide a helpful guide,
they are presented primarily in the abstract. Therefore, the Court finds it helpful to review some of the
federal appeals court opinions decided in the wake of
Universal Health in order to obtain a concrete sense
of how these standards have in fact been applied.
In United States v. Sanford-Brown, Ltd., the Seventh Circuit addressed claims brought against a “forprofit higher education enterprise, alleging fraudulent conduct in connection with claims for federal subsidies under the Higher Education Act (HEA).”
United States v. Sanford-Brown, Ltd., 840 F.3d 445

61a
(7th Cir. 2016). In affirming the district court’s grant
of summary judgment to defendant with respect to the
relator’s implied certification claim, the court determined that the relator “failed to establish the independent element of materiality.” Id. at 447. After reviewing the materiality standard, as recently set forth
by the Supreme Court in Universal Health, the court
concluded that the relator failed to offer any “evidence
that the government’s decision to pay [defendant]
would likely or actually have been different had it
known of [defendant’s] alleged noncompliance with
Title IV regulations.” Id. Rather, the court found persuasive the fact that “the subsidizing agency and
other federal agencies in this case have already examined SBC multiple times over and concluded that neither administrative penalties nor termination was
warranted.” Id. Thus, the court concluded that “[a]t
bottom, even assuming [relator’s] allegations are true,
the most he has shown is that [defendant’s] supposed
noncompliance and misrepresentations would have
entitled the government to decline payment. Under
Universal Health, that is not enough.” Id. at 447-48.
In United States ex rel. Nargol v. DePuy Orthopaedics, Inc., the First Circuit reviewed the district
court’s dismissal of an FCA complaint which alleged,
in part, that the defendant, a manufacturer of metalon-metal hip replacement devices, “made a series of
false statements to the FDA [Food and Drug Administration] and doctors, but for which the FDA would
not have approved the [ ] device for hip replacements
or would have withdrawn the approval, and doctors
would not have certified the devices for government
reimbursement.” United States ex rel. Nargol v.
DePuy Orthopaedics, Inc., 865 F.3d 29, 32 (1st Cir.
2017), cert. denied sub nom. Med. Device Bus. Servs.,
Inc. v. U.S. ex rel. Nargol, 138 S. Ct. 1551, 200 L. Ed.

62a
2d 770 (2018). On appeal, the relators asserted that
“the district court should have found that they plausibly and particularly alleged that every claim submitted to the government for payment, directly or indirectly, was false because the Pinnacle MoM device
was dangerously designed.” Nargol, 865 F.3d at 34. 15
In finding relators’ pleading insufficient as to the
above allegations, the First Circuit initially recognized that the FDA’s streamlined device approval process
constitutes the government’s method of determining whether a device is safe and effective
as claimed. That determination is what makes
the product marketable, and Relators offer no
suggestion that government reimbursement
rules require government health insurance

The particular device at issue in Nargol was approved by
the FDA in accordance with a streamlined procedure available under Section 510(k) of the Food, Drug and Cosmetic
Act, 21 U.S.C. § 360e(b)(1)(b)(ii), on the basis that defendant “represented to the FDA that the [ ] device was ‘substantially equivalent to . . . an earlier [metal-on-metal] hipreplacement device for which [defendant] had previously
received premarket approval.” Nargol, 865 F.3d at 32. Significantly, “the FDA does not independently assess the
safety and effectiveness of a medical device that qualifies
for approval under Section 510(k). Rather, the process under section 510(k) allows a device manufacturer to piggyback on the full-scale review and approval of another device by demonstrating that the new device is ‘substantially
equivalent’ to a predicate device which itself may be marketed pending the completion of a full premarket approval
process.” Id. at 34 (internal quotations and citations omitted).
15

63a
programs to rely less on section 510(k) approval than they do other forms of FDA approval.
Id. In addition, the court observed that
The FDA, in turn, possesses a full array of
tools for detecting, deterring, and punishing
false statements made during . . . approval
processes. Its decision not to employ these
tools in the wake of Relators’ allegations so as
to withdraw or even suspend its approval of
the Pinnacle MoM device leaves Relators with
a break in the causal chain between the alleged misstatements and the payment of any
false claim. It also renders a claim of materiality implausible.
Id. (internal quotations and citations omitted). In
finding that the pleading failed to contain plausible
allegations of materiality, the court stressed that the
complaint did not include an “allegation that the FDA
withdrew or even suspended product approval upon
learning of the alleged misrepresentation” notwithstanding that it did contain facts that the relators
“told the FDA about every aspect of the design of the
[ ] device that they felt was substandard, yet the FDA
allowed the device to remain on the market until [defendant], on its own volition, discontinued the device
in 2013.”
The court concluded that where
the Government pays a particular claim in full
despite its actual knowledge that certain requirements were violated, that is very strong
evidence that those requirements are not material. Such very strong evidence becomes

64a
compelling when an agency armed with robust investigatory powers to protect public
health and safety is told what Relators have
to say, yet sees no reason to change its position. In such a case, it is not plausible that the
conduct of the manufacturer in securing FDA
approval constituted a material falsehood capable of proximately causing the payment of a
claim by the government.
Id. at 35. (internal quotations and citation omitted).
In United States ex rel. Kelly v. Serco, Inc., the
Ninth Circuit addressed an FCA claim brought by the
relator “against his former employer, Serco, Inc., a
technology and project management services provider, alleging that Serco submitted fraudulent claims
for payment to the United States for work done under
a government contract.” United States ex rel. Kelly v.
Serco, Inc., 846 F.3d 325, 328 (9th Cir. 2017). In affirming the district court’s grant of summary judgment to defendant, the Ninth Circuit rejected relator’s
argument which posited that “Serco’s omissions were
material because the government relied on Serco’s reports to manage the AWS [Advanced Wireless Systems Spectrum Relocation] Project and its budget.”
Id. at 333. Following this line of reasoning, relator
concluded that “‘[i]f Serco had disclossed [sic] that it
did not have a compliant EVMS [Earned Value Management System] or that its EVM reports were fraudulent, it is doubtful Serco’s payment vouchers would
have been paid.’” Id. at 333-34 (first and second alteration in original). The Ninth Circuit was not persuaded, finding that relator had “failed to establish a
genuine issue of material fact regarding the materiality of Serco’s obligations to . . . provide valid EVM reports.” Id. at 334. Rather, the court found that “no

65a
reasonable jury could return a verdict for [relator]” in
light of the “demanding standard required for materiality under the FCA, the government’s acceptance of
Serco’s reports despite their non-compliance . . . and
the government’s payment of Serco’s public vouchers
for its work under Delivery Orders 49 and 54[.]” Id.
In United States ex rel. McBride v. Haliburton
Company, the relator filed suit under the FCA alleging that KBR, the government contractor she worked
for, “inflated headcount data, reflecting inaccurate
headcount numbers for MWR [morale, welfare and
recreation] facilities at Camp Fallujah and Camp Ar
Ramadi from July 2004 to March 2005.” 16 United
States ex rel. McBride v. Halliburton Co., 848 F.3d
1027, 1029 (D.C. Cir. 2017). The district court
“granted summary judgment for KBR,” “concluding
that [relator] failed to offer evidence that any misrepresentation regarding [recreation center] headcount
data (if one existed) was material to the Government’s
decision to pay KBR.” Id. at 1028. On appeal, relator
contended that “KBR failed to disclose violations of its
“Shortly after the U.S. military’s March 2003 invasion of
Iraq, KBR began providing services under Task Order 59,
which was effective from June 2003 to May 2005. Task Order 59 required KBR to provide a wide range of support
services for U.S. troops, such as camp construction, power
generation, dining facilities, potable and non-potable water
services, fire protection, laundry, and—relevant here—morale, welfare, and recreation (“MWR”) services. KBR performed MWR services by maintaining recreation centers
where U.S. troops could exercise, play games, watch television, and use the internet, among other things. MWR services were a relatively small part of KBR’s overall effort,
representing about 1.5% of total costs incurred under Task
Order 59. United States ex rel. McBride v. Halliburton Co.,
848 F.3d 1027, 1029 (D.C. Cir. 2017).
16

66a
obligations to maintain accurate data to support its
costs, and as such, rendered its claims impliedly
false.” In affirming the district court’s grant of summary judgment in favor of KBR, the D.C. Circuit
found Plaintiff’s theory unsupported by the evidence,
which instead tended to establish that “headcount
data (false or not) had no bearing on costs billed to the
Government,” and that “[a]bsent any connection between headcounts and cost determinations, it is difficult to imagine how the maintenance of false headcounts would be relevant, much less material, to the
Government’s decision to pay KBR.” Id. at 1033.
In addition, the court made it clear that it was not
persuaded by Plaintiff’s purportedly “dispositive” evidence consisting of “an Administrative Contracting
Officer’s (ACO) statement in a declaration that he
‘might’ have investigated further had he known false
headcounts were being maintained, and that such an
investigation ‘might’ have resulted in some charged
costs being disallowed.” Id. Rather, the court stated
that
At most, the statement amounts to the far-tooattenuated supposition that the Government
might have had the “option to decline to pay.”
See Universal Health, 136 S. Ct. at 2003 (“Nor
is it sufficient for a finding of materiality that
the Government would have the option to decline to pay if it knew of the defendant’s noncompliance.”). Given the speculative and generic nature of the ACO’s statement, and the
“rigorous” and “demanding” materiality
standard that must be met, id. at 2002–03,
McBride’s evidence will not suffice to defeat
summary judgment.

67a
Id. at 1033-34. In conclusion, the court stressed that
since it had “the benefit of hindsight” it “should not
ignore what actually occurred: the DCAA [Defense
Contract Audit Agency] investigated [relator’s] allegations and did not disallow any charged costs. In fact,
KBR continued to receive an award fee for exceptional
performance under Task Order 59 even after the Government learned of the allegations. This is very strong
evidence that the requirements allegedly violated by
the maintenance of inflated headcounts are not material.” Id. at 1034 (internal citation omitted).
While the above decisions reinforce the notion
that the materiality standard set forth in Universal
Health is a “rigorous one,” Universal Health Services,
136 S. Ct. at 2004, n. 6, it is not insurmountable. For
example, in United States v. Luce, the Seventh Circuit
addressed a claim brought by the United States under
the FCA which alleged that defendant “had defrauded
the Government by falsely asserting that he had no
criminal history so that his company could participate
in the FHA’s [Fair Housing Act] insurance program”
as a loan correspondent. 17 United States v. Luce, 873
“A loan correspondent is an entity that has as its principal activity the origination of mortgages for sale or transfer
to other mortgagees . . . [which involves] soliciting the
mortgagor and verifying employment information, earnings, and assets. In short, a loan correspondent “originate[s] and verif[ies] the initial information on an FHA
loan.” Luce, 873 F.3d at 1001 (alterations in original). Loan
correspondents, similar to other mortgagees, must, in order to participate in the FHA loan insurance program, annually certify that “none of the principals, owners, officers,
directors, and/or employees of the above named mortgagee
are currently involved in a proceeding and/or investigation
that could result, or has resulted in a criminal conviction,
debarment, limited denial of participation, suspension, or
17

68a
F.3d 999, 1000 (7th Cir. 2017). On appeal, defendant
asserted, in part, that “his false certifications were not
material and that lingering issues of material fact preclude[d] summary judgment.” Id. at 1000.
In rejecting defendant’s materiality challenge, the
court focused on the fact that the Government, upon
learning of defendant’s unrelated indictment for wire
fraud, mail fraud, making false statements and obstruction of justice, immediately “instituted debarment proceedings to end [defendant’s] participation in
the program,” which, according to the court, “confirm[ed] the centrality of this requirement.” Id. at
1002, 1007. Significantly, in finding the requisite materiality, the court highlighted the fact that “the Government’s actions following its discovery of [defendant’s] fraud support, rather than undercut, a finding
of materiality” since “[a]lthough new loans were issued, the Government also began debarment proceedings, culminating in actual debarment. There was no
prolonged period of acquiescence.” Id. at 1008.
2.

Analysis

Having carefully reviewed the materiality standard and accompanying principles set forth in Universal Health as well as courts of appeal decisions applying that standard and in light of the issues raised in
the parties briefs, the Court finds the following considerations relevant to its analysis of materiality: (1)
whether there existed an unambiguous statutory or
civil money penalty by a federal, state, or local government.” Id. (emphasis omitted). The certification requirement stems from 24 C.F.R. Section 202.5(j)(2) which “affirmatively prohibits program participation by loan correspondents who have had a principal ‘indicted for, or . . .
convicted of, an offense’ bearing on the loan correspondent’s integrity.” Id. at 1007.

69a
regulatory requirement that the VA designated as a
condition of payment; (2) the VA’s general knowledge
and treatment of impermissible fees; (3) whether (and
if so, when) the VA obtained actual knowledge of Relators’ allegations; and (4) to the extent the VA gained
such knowledge, its behavior in the wake of learning
about the nature of Relators’ allegations.
i. Condition of Payment
38 C.F.R. Section 4313(a) contains a provision
that can be construed as a condition of payment. That
section prescribes, in part, that “no loan shall be guaranteed or insured unless the lender certifies to the
Secretary that it has not imposed and will not impose
any charges or fees against the borrower in excess of
those permissible under paragraph (d) or (e) of this
section.” 38 C.F.R. § 36.4313(a); see also 38 C.F.R. §
36.4340(k) (“Lenders originating loans are responsible
for determining and certifying to VA on the appropriate application or closing form that the loan meets all
statutory and regulatory requirements. Lenders will
affirmatively certify that loans were made in full compliance with the law and loan guaranty regulations as
prescribed in this section.”). This certification requirement (among others) is contained on VA Form 261820, Section II, which requires the Lender’s signature. Relators’ Ex. 72.
According to Relators, this condition of payment,
in itself, is “proof the requirement is material under
the FCA.” Relators’ Response to Defendant Mortgage
Investors Corporation’s Second Motion for Summary
Judgment (“Rels.’ Opp’n”) at 41; see id. at 42-43 (“The
fact that federal regulations make a truthful certification of compliance a condition precedent to the guaranty, and establish that fraud and misrepresentation

70a
are grounds for a complete defense to making payment on the guaranty, proves MIC’s fraudulent certifications of compliance are material under the FCA.”).
In contrast, MIC, in its moving brief, fails to mention the existence and impact, if any, of this regulatory
requirement to the instant inquiry. See Memorandum
of Law in Support of Mortgage Investors Corporation’s Motion for Summary Judgment (“MIC’s Mem.”)
at 42-52. MIC only addresses this regulatory section
in its reply brief. Reply in Further Support of Mortgage Investors Corporation’s Motion for Summary
Judgment (“MIC’s Reply”) at 4-6. Essentially, MIC’s
position is that while the regulatory “language might
be minimally relevant . . . both Escobar and a substantial body of post-Escobar precedent explain that the
focus of the analysis must be on how the relevant
agency—here the VA—actually acted vis-à-vis the alleged unlawful conduct.” Id. at 4-5 (citing cases). In
addition, MIC asserts that “even if the statutory language were relevant, the evidence contradicts relators’ premise that the at-issue fee regulations are designated a condition of payment.” Id. at 5.
Initially, the Court points out that to the extent
MIC attempts to assert that 38 C.F.R. Section 4313(a)
does not contain an explicit condition of payment
based upon the fact that the VA, according to MIC
“distinguishes between IRRRL requirements that affect the guarantee, and those that do not,” id. at 5-6,
such an argument is without merit. MIC cites no case
law authority, nor is the Court aware of any, which
posits that in order for a statutory, regulatory or contractual requirement to qualify as a condition of payment a court should disregard the language itself and
instead look to the subjective behavior of the particular agency charged with oversight. Rather, Universal

71a
Health makes clear that the Government has the prerogative to “expressly identify a provision as a condition of payment” in a regulation, statute or contract.
Universal Health Services, Inc., 136 S. Ct. at 2003; id.
at 1996 (stating that a “requirement” may be “expressly designated as a condition of payment”). Indeed, in United States ex rel. Petratos v. Genentech
Inc., the Third Circuit, in the context of analyzing the
materiality of a Complaint alleging violations of the
FCA, noted that a particular statutory section qualified as a condition of payment based solely upon the
language utilized in the statute itself. See United
States ex rel. Petratos v. Genentech Inc., 855 F.3d 481,
486–87 (3d Cir. 2017) (recognizing that “[t]he Medicare statute [42 U.S.C. Section 1395y(a)(1)(A)] provides that ‘no payment may be made’ for items and
services that ‘are not reasonable and necessary for the
diagnosis and treatment of illness or injury’” and concluding that this statutory section constitutes “a condition of payment.”). Notably absent was any discussion surrounding the Centers for Medicare and Medicaid Services subjective application of this provision
to such a determination. Thus, the Court finds that
the explicit language set forth in 38 C.F.R. Section
4313(a) does qualify as a condition of payment (or in
this case of obtaining the loan guarantee). To conclude
otherwise would be to effectively ignore the plain
meaning of the text of that particular regulatory section. This the Court declines to do.
However, Relators fare no better in their attempt
to characterize this regulatory section as dispositive
on the materiality issue. See Rels.’ Opp’n at 41¬43.
Contrary to Relators’ suggestion, the mere fact that
this regulatory section qualifies as a condition of obtaining a loan guarantee does not lead to the inexorable conclusion that such a requirement is material on

72a
that basis alone. To the contrary, the Supreme Court
in Universal Health made clear that “[a] misrepresentation cannot be deemed material merely because the
Government designates compliance with a particular
statutory, regulatory, or contractual requirement as a
condition of payment.” Universal Health Services,
Inc., 136 S. Ct. at 2003. Rather, “the Government’s decision to expressly identify a provision as a condition
of payment is relevant but not automatically dispositive.” Id.; see Petratos, 855 F.3d at 490 (“The mere fact
that § 1395y is a condition of payment, without more,
does not establish materiality.”). It follows that while
the condition of payment language set forth in 38
C.F.R. Section 4313(a) is relevant in the context of a
materiality analysis, it is but one piece of the puzzle.
ii. VA’s General Knowledge & Treatment of Impermissible Fees
There is no question that during the relevant
timeframe encompassing this lawsuit the VA was generally aware that lenders were charging unallowable
fees to borrowers in the context of originating IRRRL
loans. London Dep. at 117, 121. Indeed, Mr. London,
the VA’s 30(b)(6) witness, confirmed that “finding unallowable fees on HUD-1s [constituted] one of the
most common loan deficiencies that RLCs [Regional
Loan Centers] find in their reviews” and, as such, it
was his “understanding” that “the VA has been aware
of [the problem of lenders charging borrowers unallowable fees] for as long as [RLCs] have been sampling
loans.” Id. at 117. In fact, London agreed that it was
“not a surprise to the VA that lenders charge unallowable fees to borrowers.” Id. at 122. Moreover, during
the timeframe within which the VA RLCs were auditing “at least a 10 percent” sample of loans originated
within each of their respective jurisdictions (2000-

73a
2010), id. at 39, London confirmed that the VA “infer[red] that there were fee issues with other loans
that [they] did not review.” Id. at 117. 18
There being no question as to the VA’s knowledge
that the charging of unallowable fees constituted one
of the most prolific loan deficiencies encountered during the RLCs’ audits, see id. at 117, what actions did
the VA generally take in the face of such issues?
Again, Mr. London offers some perspective. During
his deposition, London testified that where an unallowable fee is charged to the borrower, the VA’s general practice is to direct the lender to issue a refund
(either in cash or through reduction of the principal
balance of the loan). Id. at 99-102. While London qualified that this course of action “assume[s] that [the
overcharge] was [ ] inadvertent” or a “good faith” error, when pressed, he nevertheless agreed that the VA
never took any action under any set of circumstances
(at least those circumstances described at the time of
his deposition) involving unallowable fees other than
directing the lender to issue a refund. See id. at 102103 (stating “no” when asked “[w]ell, in any circumstances [described during the deposition], have you
ever seen the VA do anything other than instruct a
lender to refund an overcharge on a closing fee?”); but
see id. at 174 (stating that the VA’s course of action in
At least during the relevant time period of this lawsuit,
the VA had three separate ways in which it monitored
lenders’ compliance: (1) the RLCs, which performed audits;
(2) the national monitoring unit, which performed additional audits; and (3) a team of “loan specialists and management analysts” in the oversight unit located at the VA’s
Central Office (“VACO”) who, although primarily responsible for “internal control reviews . . . could have reviewed
loan files as well.” London Dep. at 54.

18

74a
seeking only a refund was based on the notion that the
fees issues were “inadvertent” and “not a deliberate
intent to misrepresent”), 202 (same). 19 The VA’s pattern and practice of exclusively utilizing the refund
mechanism in the face of unearthing unallowable fees
was fleshed out further during the following exchange:
Q: Did you find any instance in which the VA
had sought to void the guarantee of a VA loan
because of an unallowable closing fee or cost
being charged on the HUD-1?
A: No.
Q: Did you find any instance in which the VA
ever voided a guarantee of a VA loan because
of an unallowable closing fee or cost that had
been hidden on a HUD-1?
A: No.
Q: [H]as the VA ever asserted a defense to a
VA loan because of an unallowable closing fee
or cost being charged on the HUD-1?
A: Not to my knowledge.
Q: [H]as the VA ever asserted a defense to a
VA loan because of an unallowable closing fee
or cost that was hidden on a HUD-1?
Mr. London based his (as well as the VA’s) answers on
conversations he had with long¬time VA employees who
had been “with the agency for at least two decades, if not
more” as well as a former employee “who had a much
longer tenure with the program.” London Dep. at 104.
These individuals confirmed that they had never seen the
VA respond to an unallowable closing fee in any fashion
other than directing the lender to issue a refund. Id.
19

75a
A: Not to my knowledge.
Q: [D]id you ever find any instance in which
the VA had reduced the amount of an allowed
claim on the guarantee because of an unallowable closing fee?
A: No.
...
Q: To your knowledge, has the VA ever revoked the guarantee on any IRRRL[s] that
were originated by MIC because of an unallowable fee or a fee being charged above that [
] is reasonable and customary?
A: To my knowledge VA has never revoked an
MIC
guarantee because of those reasons.
...
Q: [T]o your knowledge, did the VA ever tell
MIC that they could not [originate] IRRRL
loans anymore?
A: To my knowledge that did not occur.
Id. at 107-08, 167-68; see also id. at 106 (agreeing that
the VA never withdrew a guarantee on any loan or required the lender to execute an indemnification agreement due to a fee issue uncovered during loan audits).
Notwithstanding the generalized practice of the
VA in relying exclusively on the refund mechanism
when dealing with unallowable fees, according to London, “if the VA either suspected or found fraud” such
a suspicion or finding “would [be] take[n] seriously
and the appropriate channels would be alerted.” Id.
at 240, 237-38 (opining that if the VA had suspicions

76a
or otherwise knew lenders were bundling unallowable
fees into allowable fees “we would have elevated that
issue and also alerted the Office of Inspector General”).
Similar to the testimony of Mr. London, Mr.
White, who retired from the VA in 2013 as a supervisory loan specialist, stated that “if there was an unallowable fee, notwithstanding the lender certification,
the presumption was [to] tell them to refund the fee[.]”
March 11, 2016 Deposition of William White (“White
Dep.”) (Doc. 957-16) at 22-23, 94. Indeed, White clarified that “in any way, shape or form if it’s determined
[the lender] charged an unallowable fee, whether honest mistake or whatever . . . we would say [the lender]
need[ed] to refund that fee to the veteran” and that
once “the lender refunds the fee, the [loan] guaranty
would stay in place.” Id. at 120-21. However, according to White, the VA’s consistent and exclusive use of
the refund mechanism in the face of a lender levying
unallowable fees “presumes that it’s an oversight.” Id.
at 121; see also id. (stating that “if evidence came to
light that there was a deliberate attempt to conceal[,]
the fact that unallowable fees were rolled in, then that
would be a different ball game”). White clarified that
in his view if “there was ever a situation where there
was some sort of broad pattern of knowingly doing
something like [charging unallowable fees] then it
would be elevated . . . up the road” and that if the fee
issues resurfaced “over and over again, then the field
stations can . . . suggest monitoring[.]” Id. at 121.
The VA’s apparent acquiescence—evidenced by its
sole use of refunds to the exclusion of other administrative sanctions, mandating indemnification, voiding
the loan guarantee or reducing the claim amount—to
the widespread practice of lenders charging unallow-

77a
able fees does not bode well for Relators. This is because what matters is “not the label the Government
attaches to a requirement, but whether the defendant
knowingly violated a requirement that the defendant
knows is material to the Government’s payment decision.” Universal Health Services, Inc., 136 S. Ct. at
1996 (emphasis added). Under these factual circumstances it is difficult for the Court to envision exactly
how MIC could be affirmatively charged with
knowledge that the certification requirement concerning charges or fees is material (i.e., central) in view of
the VA’s seemingly complacent and lackadaisical attitude (i.e., continually seeking only that lenders issue
refunds in response to lenders charging borrowers unallowable fees) in the face of widespread violations of
that requirement by lenders over the course of many
years.
This is not to say that MIC had no knowledge of
what was going on inside its own doors concerning
compliance with this regulatory requirement. Indeed,
the record is replete with documents which, at minimum, create a permissible inference that intentional
violations of the charges and fees regulation were (or
likely were) occurring. Some examples include:
•
MIC’s correspondence with its settlement
agents which creates an inference that MIC
was attempting to reduce its out-of-pocket
costs as concerns payment of any closing fee
and instead shifting that cost to borrowers.
See Relators’ Ex. 4, 34 (April and June 2009
email correspondence between MIC’s Vice
President J.T. Taylor and Paula Pautauros,
Chief Operating Officer of National Title
Agency concerning closing fee charges)

78a
•

MIC fee sheets which arguably show fee
shifting/bundling. See, e.g., id. Ex. 37 (Performance Title Agency fee sheet showing
$950 “flat fee” and indicating this amount
included a closing fee), Ex. 40 (Montgomery
Home Title fee sheet indicating, in parentheses, that title exam fee includes a closing
fee), Ex. 43 (Netco fee sheet indicating that
a $100 closing fee but noting, via a handwritten remark, that $250 should be added);
Ex. 46 (Transcontinental fee sheet showing
reduction of closing fee and increase of title
exam fee); Ex. 47 (same with respect to
Netco fee sheet); Ex. 48 (same with respect
to Fulco fee sheet)

•

MIC HUD-1s which create an inference that
fee shifting/bundling was likely occurring.
See, e.g., Rels.’ Opp’n at 22-28 (setting forth
the different ways in which MIC’s HUD-1s
create an inference of fee shifting/bundling
and setting forth underlying record evidence
supporting these assertions) 20

The Court does take issue with Relators’ claim that “MIC
IRRRL HUDs can be compared to MIC HUDs for non-IRRRLs to reveal bundling” since, according to Relators,
“[u]nlike IRRRLs, there is no rule precluding a borrower
from paying a closing fee on conventional VA loans and
FHA loans.” Rels.’ Opp’n at 22. Relators’ provide no citation for this assertion and indeed, at least with respect to
VA loans, the statement is incorrect. Rather, 38 C.F.R. Section 36.4313(d) makes clear that the “schedule of permissible fees and charges shall be applicable to all Department
of Veterans Affairs guaranteed or insured loans.” Thus, an
20

79a
However, despite this evidence, and MIC’s likely
knowledge of these practices, it remains true that “not
every violation of a [regulatory] requirement gives
rise to liability [under the FCA].” Universal Health
Services, Inc., 136 S. Ct. at 1996. In this case, notwithstanding MIC’s actions as concerns the fee regulation,
it is the VA’s attitude in the face of this continuous
stream of fee violations which creates a wide chasm
between any such violations by MIC on the one hand
and a finding (or at minimum a material issue of fact)
of materiality on the other.
Indeed, in light of London’s own characterization
as to the pervasive nature of the problem coupled with
the overall duration of the VA’s awareness of the same
(i.e., “for as long as [RLCs] have been sampling
loans”), it is somewhat difficult for the Court to imagine that such a widespread and apparently systemic
problem was consistently treated as nothing more
than a stream of “inadvertent” or “good faith” errors,
especially where the VA itself concedes that it “infer[red] that there were fee issues with other loans
that it did not review.” London Dep. at 117, 122. This
observation is not surprising given that during his
deposition, London appears to intimate that the
charging of unallowable fees, in and of themselves,
itemized closing or settlement fee is not only prohibited
when originating an IRRRL but also when originating any
other type of VA loan. See VA Pamphlet § 8.02 (explicitly
setting forth that a loan closing or settlement fee cannot be
levied against the borrower as an itemized charge on any
type of VA loan but rather, must be included, if at all, in
the 1% flat fee); compare 38 C.F.R. § 36.4313 (permissible
fees and charges applicable to all VA loans) with 24 C.F.R.
§ 206.31 (permissible fees and charges applicable to all
FHA loans).

80a
would not rise to the level of an “egregious” violation
warranting any elevation in review. London Dep. at
17-18. Rather, according to London, violations warranting an elevated review included issues surrounding “creditworthiness,” “collateral,” and “eligibility”—
matters central to the underwriting and ultimate
guarantee of a VA loan. Id. at 18. These facts further
attenuate the purported materiality of the certification requirement as pertains to the imposition of
charges and fees (which are in fact applicable to all
VA insured or guaranteed loans, not just IRRRLs). See
38 C.F.R. § 36.4313(a), (d).
Further, it is true that both London and White
testified that had the VA suspected or otherwise had
knowledge that the scope of the problem crossed the
line from good faith mistakes to intentional conduct,
the VA would have conducted further inquiries or embarked on an investigation. However, such speculative and seemingly self-serving post hoc statements
primarily serve only to illustrate that the VA, assuming it unearthed such misconduct, would have the option of declining to pay (or revoke the guarantees). Yet
the existence of that “option,” by itself, is insufficient
to establish (or raise a genuine issue) as to materiality. See Universal Health Services, Inc., 136 S. Ct. at
2003 (“Nor is it sufficient for a finding of materiality
that the Government would have the option to decline
to pay if it knew of the [ ] noncompliance); McBride,
848 F.3d at 1033¬34 (finding that contracting officer’s
statement that he “‘might’ have investigated further”
and that “such an investigation ‘might’ have resulted
in some charged cost being disallowed” was insufficient to survive summary judgment as to element of
materiality”); Sanford-Brown, Limited, 840 F.3d at
447-48 (recognizing allegations of materiality as insufficient where “the most [plaintiff] has shown is that

81a
[defendant’s] supposed noncompliance and misrepresentations would have entitled the government to decline payment” and concluding that “under Universal
Health, that is not enough”).
The above analysis leads to the conclusion that
the VA’s actual practice upon learning of widespread
fee violations was limited solely to directing that the
lender issue refunds to veteran borrowers, to the exclusion of all else, despite the many other arrows
available in its quiver. And it is the VA’s continuous
pattern of inaction (i.e., relying only on the refund
mechanism) under such circumstances that creates a
high mountain for Relators to climb as to this element
of their claim. Nevertheless, while relevant, the VA’s
inaction in the face of such generalized knowledge of
fee violations does not, in itself, constitute the proverbial nail in the coffin of Relators claims. Rather, the
VA’s behavior after being apprised of the specific allegations contained in this lawsuit serves as the ultimate death knell with regard to materiality. See U.S.
ex rel. Thomas v. Black & Veatch Special Projects
Corp., 820 F.3d 1162, 1174 (10th Cir. 2016) (stating
that “evidence of the government’s inaction after
learning of alleged violations [is] sufficient to establish the lack of materiality) (emphasis in original) (citing cases).
Before proceeding with its analysis, the Court
takes a moment to further reflect on the VA’s issuance
of refunds in the face of fee noncompliance. Such a
pause is warranted since the VA’s direction to lenders
to issue refunds in the face of an unallowable fee—
notwithstanding the Court’s previous observations—
is meaningful in that it distinguishes this case from
other FCA actions where materiality was found lacking. This case, in contrast, does not involve a situation

82a
in which the Government contracts for a good or service and continues to pay claims under the contract in
full and otherwise takes no other action despite noncompliance by the vendor (whether such noncompliance is based upon the delivery of non-conforming
goods or other statutory, regulatory or contractual requirements). See, e.g., United States ex rel. Bachert v.
Triple Canopy, Inc., 321 F. Supp. 3d 613, 620-21 (E.D.
Va. 2018) (concluding that government contractor’s alleged falsification of weapons inspection records was
not material to the Government’s decision to pay, in
part, because “the State Department never asked for
any money back from defendant upon learning of
Bachert’s allegations. Instead, the State Department
repeatedly renewed defendant’s Base Contract and
TO–5 every time it had the option to do so, even after
it learned of Bachert’s allegations.”); United States v.
Salus Rehab., LLC, 304 F. Supp. 3d 1258, 1260 (M.D.
Fla. 2018) (finding, in the context of a post-trial motion seeking judgment as a matter of law, that government contractor’s failure to maintain the required
care plan and consistent submission of defective paperwork were not material to the Government’s decision to pay medical claims since the Government “has
[not] ceased to pay or even threatened to stop paying
the defendants for the services provided to patients . .
. continuously since long before this action began in
2011.”).
Here, by directing that refunds be issued, the VA
took an affirmative, level and consistent approach
when IRRRL audits uncovered lenders charging unallowable fees to borrowers. Thus, such behavior on the
part of lenders, when spotted by the VA, elicited a direct response, albeit an altogether consistent and mechanical one. As such, at least in some sense, the act
of lenders charging unallowable fees could be viewed,

83a
in general, as triggering some sort of VA enforcement
action since it had the effect of causing a response in
the form of directing the issuance of refunds. And this
fact is not insignificant since it illustrates that the VA
did not simply ignore the issue (when the same was
spotted) or else tacitly acquiesce by doing nothing in
the face of such lender noncompliance.
However, this observation, in turn, begs the following question: would an additional piece (or pieces)
of information concerning the distinct facts and issues
in play in this case—to the extent such facts entered
into the VA’s sphere of knowledge—prove to elicit a
more particularized and targeted response from VA
over and above the baseline reaction of merely directing that a refund be issued? This is significant because
when analyzing materiality in connection with the
FCA, a court should consider “whether a piece of information is sufficiently important to influence the behavior of the recipient.” United States ex rel. Escobar
v. Universal Health Servs., Inc., 842 F.3d 103, 110 (1st
Cir. 2016) (internal citation omitted). In other words,
if the VA acquired knowledge of MIC’s alleged fraudulent activities (i.e., hiding unallowable fees within allowable fees on HUD-1s thereby shifting impermissible costs onto borrowers), and, upon doing so, elevated
its response from merely directing refunds to something more substantial, this would go a long way in
illustrating “whether the misrepresentation had ‘a
natural tendency to influence, or be capable of influencing, the payment or receipt of money or property[.]’” Marsteller for use & benefit of United States
v. Tilton, 880 F.3d 1302, 1313 (11th Cir. 2018) (quoting 31 U.S.C. § 3729(b)(4)).

84a
iii.
VA’s Actual Knowledge of Relators’ Claims
Beginning February 27, 2006, Relators’ counsel
started discussing the joint prosecution of this action
with the Government. See MIC Ex. 70 (Relators’ Privilege Log [December 24, 2015]) at 1. Approximately 9
days later, on March 8, 2006, the original Complaint
was filed under seal. (Doc. 1). Thereafter, beginning
on April 7, 2006, Relators’ counsel continued their discussions not only with the Department of Justice and
the United States Attorney’s Office but also with investigators from the VA’s Office of the Inspector General (“OIG”). See id. at 2. These discussions concerned
the allegations in the Complaint, namely, “Defendants’ unlawful practices, including the charging of unallowable fees and false certifications under the [IRRRL] Program” as well as “any other relevant issues
arising out of this litigation.” Id. Relators’ discussions
with the Government (including investigators for VA
OIG) concerning the specific allegations in the Complaint (and later the Second Amended Complaint)
spanned a period of approximately five years. Ultimately, after the district court judge advised the Government that no further extensions would be granted,
the Government decided not to intervene in this case.
See 06-cv-547, (Doc. 58) (Order stating that no further
extensions of time would be granted); (Doc. 59) (Government’s September 30, 2011 declination statement).
While the information contained in Relators’ privilege log concerning the “[d]escription, [s]ubject, and
[p]urpose” of the communications between their counsel and various governmental entities is understandably vague, what is self evident is the fact that extensive discussions centering on Relators’ allegations remained ongoing over a period of years and specifically
included investigators from VA’s OIG. See, e.g., MIC

85a
Ex. 70 at 2, 4, 14, 17. For example, on August 21, 2009,
Relators’ counsel prepared a memorandum containing
a “Short Summary of Fraudulent Acts [and] discussing mental impressions about the case [concerning]
fraud, damages, and investigation” that was shared
with both the Department of Justice and the VA. Id.
at 17.
In addition, during his deposition, London testified as follows:
Q: In 2009 did [the] VA become aware of a lawsuit that was filed in Georgia over unallowable fees being charged on IRRRLs?
A: Yes.
Q: And more specifically, did the VA become
aware that there were allegations that unallowable fees were being added to allowable
fees on the HUD-1s for IRRRLs
A: Yes.
London Dep. at 125-26. 21 Thus, at least as of 2009, the
VA arguably had knowledge not only of the general
It is worth pointing out that after this action was filed in
2006, third-party veterans filed unsealed cases, including
at least one class action, which involved similar fraud
claims (but not FCA claims) against Wells Fargo. See, e.g.,
Gaston v. Wells Fargo Home Mortg., Civ. A. No. 08 CV
12515E (Clayton Cnty., Ga., State Ct. Dec. 17, 2008); Wynn
v. Wells Fargo Bank, N.A., Civ. No. 1:09-CV-00165, Doc. 1
(N.D. Ga. Jan. 20, 2009). Thus, London’s testimony may be
referring to these other actions. Regardless, in light of the
ongoing contacts and exchange of information as between
Relators and various factions of the Government concerning the allegations in this case and occurring during this
timeframe, London’s testimony still has force since it unambiguously illustrates that the VA was appraised of the
21

86a
fact of the existence of this lawsuit (assuming it did
not have such knowledge at a prior date based upon
discussions between Relators’ counsel, VA OIG and
the U.S. Attorney’s Office that predate 2009) but also
as to the nature of Relators’ specific allegations concerning the alleged bundling by lenders (including
MIC) of unallowable fees into allowable fees on the
HUD-1s. Moreover, as a direct result of the VA’s
knowledge of Relators’ allegations in the non-FCA
mortgage fraud parallel lawsuits, additional audits
were conducted. See, e.g., id. at 127 (agreeing that “the
audit of Wells Fargo in December 0f 2009 was triggered by the allegations that came to light in November 2009 concerning unallowable fees being charged
on IRRRLs”).
On the flip side of the coin, London nevertheless
disclaimed any knowledge on the part of the VA that
lenders were in fact engaging in unauthorized bundling of fees. Id. at 237-38. Specifically, when asked
“[d]id the VA [ ] know that lenders . . . had been deliberately and systematically bundling unallowable
fee[s] into allowable fees and concealing that fact from
the VA?” London stated that “[n]o, the VA is not aware
of that. And if it had any suspicion [the VA] would
have elevated that issue and also alerted the [OIG].”
Id.; see id. at 240 (stating that “if [the] VA either suspected or found fraud that [it] would take that seriously and the appropriate channels would be
alerted”).

very problem at issue in this case. Additionally, later on
during his testimony, London was asked “[i]n 2009 and
2010 were you personally aware of the existence of this
False Claims Act lawsuit” to which he responded that
“[y]es, I was aware.” London Dep. at 238.

87a
While London’s testimony might at first blush appear irreconcilable, it is arguably consistent with the
perspective of a self-protective agency officer. Further,
the testimony bears directly on the inquiry concerning
whether the VA had actual knowledge of the allegedly
fraudulent acts. While London’s earlier testimony
concedes that the VA had actual knowledge of the allegations concerning Defendants’ alleged fraudulent
acts, his later testimony denies that the VA had actual
knowledge of the wrongdoing itself. Compare id. at
125-26 with 237-38. Essentially, then, the VA’s position, based upon London’s testimony, is that while it
knew full well the nature and scope of Relators’ allegations, it never on its own took any action in order to
substantiate the validity of Relators’ claims, even
though it conducted audits which identified a continuing pattern of the mortgage companies’ noncompliance with the charges and fees regulation.
Thus, in the VA’s view, it lacked knowledge of the
wrongdoing itself despite being placed on notice of the
purported misconduct through the well-pleaded allegations in Relators’ Complaint as well as the multiyear internal discussions with Relators’ concerning
the prosecution of this action. As such, whether the
VA can be said to have had actual knowledge that certain regulatory requirements were violated based
upon Defendants’ alleged conduct turns directly upon
whether such knowledge can be predicated solely
upon learning of Relators’ allegations or whether the
VA must have actually unearthed or otherwise confirmed the nature of the allegations through its own
investigative efforts. To shed light on this question,
the Court turns to some recent courts of appeal decisions on the issue.
In U.S. ex rel. Thomas v. Black & Veatch Special
Projects Corp. (“Black & Veatch”), the Tenth Circuit,

88a
in analyzing materiality in the context of an appeal of
the district court’s summary judgment ruling, was
faced with the question of whether actual knowledge
could be imputed to the Government for materiality
purposes based solely upon the Government being appraised of the relator’s allegations or, in the alternative, whether such information would be insufficient
to charge the Government with knowledge without it
actually ferreting out the wrongdoing for itself. See id.
at 1173. In finding that the Government’s knowledge
of the relators’ allegations to be sufficient, the court
pointed out that the case upon which relators’ had relied (which had taken the opposite approach) “appear[ed] to be the sole case in which a court has concluded the government’s actions are irrelevant to the
materiality analysis in the absence of confirmation of
the relators’ allegations” while also noting that
“[o]ther courts have found evidence of the government’s inaction after learning of alleged violations
sufficient to establish the lack of materiality.” Id. at
1174 (emphasis in original) (citing cases).
The conclusion reached by the Black & Veatch
court as to this discrete issue appears to constitute the
majority view. That is, courts generally find that the
Government’s knowledge of a relator’s allegations and
its subsequent action (or inaction) based upon that
knowledge is relevant to the issue of whether a certain
requirement is material to the Government’s decision
to pay. See D’Agostino v. eve, Inc., 845 F.3d 1, 7 (1st
Cir. 2016) (“The fact that CMS has not denied reimbursement for Onyx in the wake of D’Agostino’s allegations casts serious doubt on the materiality of the
fraudulent representations that D’Agostino alleges.”);
Nargol, 865 F.3d at 34 (recognizing that “[t]he FDA . .
. possesses a full array of tools for detecting, deterring,

89a
and punishing false statements made during . . . approval processes” and concluding that “[i]ts decision
not to employ these tools in the wake of Relators’ allegations so as to withdraw or even suspend its approval
of the Pinnacle MoM device . . . renders a claim of materiality implausible.”); United States ex rel. Harman
v. Trinity Indus. Inc., 872 F.3d 645, 667 (5th Cir.
2017), cert. denied sub nom. U.S. ex rel. Harman v.
Trinity Indus., Inc., No. 17-1149, 2019 WL 113076
(U.S. Jan. 7, 2019) (observing that “[b]y June 2014,
[the Government] had knowledge of all of Harman’s
allegations and still approved the ET-Plus” and opining that “continued payment by the federal government after it learns of the alleged fraud substantially
increases the burden on the relator in establishing
materiality.”); United States ex rel. Berg v. Honeywell
Int’l, Inc., 740 F. App’x 535, 538 (9th Cir. 2018) (unpublished) (finding that “[r]elators [ ] failed to raise a
triable issue as to the element of materiality,” in part,
where “the Army began paying Honeywell’s claims in
2003, and continued up to at least 2008, despite being
aware of Relators’ fraud allegations since 2002. . . .”).
The prevailing circuit authority as to this issue is
persuasive. After the Government is presented with
particularized allegations concerning a defendant’s
wrongdoing, it cannot logically be said that following
such presentation and further discussions with a relator, the Government nevertheless continues to lack
concrete awareness of the wrongdoing, even where it
may have initially been ignorant of the misconduct
precisely because a defendant’s fraudulent behavior
concealed the nature of its own nefarious acts. To conclude otherwise would require indulging in the fiction
that the Government, despite hearing what relators
have to say concerning allegations of fraud (through
the complaint and discussions surrounding a decision

90a
to intervene in the lawsuit), could nonetheless continue to insist that it remained bamboozled or hoodwinked by a defendant’s fraud—thus precluding it
from taking some kind of action to attempt to stamp
it out. In the Court’s view, at least under the present
circumstances, appears untenable.
Based upon the above analysis, the Court finds
that the VA’s awareness of the particular allegations
contained in this lawsuit coupled with the many years
that it (both the VA itself and its OIG unit) was involved in discussions with both Relators and officials
from the Department of Justice militates in favor of
finding that the VA’s knowledge of the Relators’ allegations is relevant to the Court’s materiality inquiry.
Specifically, the VA was on notice of the alleged fraud
at least as of 2009 and its actions in the wake of these
revelations—even if it employed a refund requirement
based on individual audits—are an important aspect
of the materiality inquiry. See Universal Health Services, Inc., 136 S. Ct. at 2003-04 (“[I]f the Government
regularly pays a particular type of claim in full despite
actual knowledge that certain requirements were violated, and has signaled no change in position, that is
strong evidence that the requirements are not material.”).
iv.
VA’s Post-Knowledge Actions
Having determined that the VA had the requisite
knowledge of the alleged fraud, the next question is
how the VA reacted, including any specific actions it
took with respect to Defendants, after acquiring that
knowledge. See United States v. Salus Rehab., LLC,
304 F. Supp. 3d 1258, 1260 (M.D. Fla. 2018) (finding
element of materiality not met where despite the Government’s awareness of “the defendants’ disputed
practices, aware[ness] of this action, aware[ness] of

91a
the allegations, [and] aware[ness] of the evidence”
there was no evidence that the Government
“threat[ened] [ ] non-payment,” made a “complaint or
demand” against defendant nor otherwise “resort[ed]
to an administrative remedy or other sanction” based
upon defendants’ practices).
After surveying the evidentiary record, the Court
has been unable to find, nor has either party identified, a single instance where the VA has deviated,
even slightly, from its standard practice of simply requesting that a lender issue a refund to the veteran in
the event it discovered that the lender has charged the
borrower an unallowable fee. See London Dep. at 103
(agreeing that during his many years with the VA’s
loan division he has “[n]ever seen the VA do anything
other than instruct a lender to refund an overcharge
of a closing fee”). Rather, notwithstanding the continuing loan audits conducted by the RLC from 2009 onward as well as two extensive on-site audits conducted
by the Loan Guarantee Service Monitoring Unit in
2010 and 2012—all of which found violations akin to
those at issue in this case—the VA never so much as
issued even a written warning. Such a warning could
have alerted MIC that continued noncompliance with
applicable regulatory requirements could lead to administrative sanctions, including debarment or suspension, and/or that the VA would resort to voiding
loan guarantees or requiring that the lender sign an
indemnification agreement concerning the at-issue
loans. Instead, the record shows only that the VA, after learning what Relators had to say, seems to have
regarded “the disputed practices with leniency or tolerance or indifference or perhaps with resignation to
the colossal difficulty of precise, pervasive, ponderous,
and permanent” oversight required to ensure com-

92a
plete compliance with the dictates of the loan program. Salus Rehabilitation, LLC, 304 F. Supp. 3d at
1260. The only conclusion that logically follows is that
the VA, even after acquiring knowledge of Defendants’
alleged conduct, did not treat this kind of behavior as
“egregious,” see London Dep. at 16-17, but rather
viewed it as a minor or cumbersome issue such that
when it was spotted—even continually in documents
submitted by the same lender—it would be dealt with
in the same mechanical fashion without fail—the directive to issue a refund. Moreover, London and
White’s speculative testimony concerning the nature
of the VA’s reaction had it suspected or found fraud,
see id. at 240; White Dep. at 97, 121, is of minimal relevance in light of the fact that the Court has before it
evidence of what actually happened in the wake of the
VA learning about the nature of alleged fraudulent activities which transpired here. See McBride, 848 F.3d
at 1034; Harman, 872 F.3d at 667-68. The Court addresses each of the above observations in further detail below.
First, with respect to the audits conducted by each
RLC from 2000 through 2013, which included a random ten percent sampling of loans originated in each
respective jurisdiction, see London Dep. at 39, 43, the
record demonstrates that during these audits, the VA
unearthed the same unallowable fees and charges violations at issue in this lawsuit—after becoming
aware of Relators’ allegations. For example, on February 9, 2009 the Atlanta RLC sent MIC a post-audit
deficiency letter which indicated that MIC had
charged the veteran borrower an unallowable fee and
that a refund should issue. See MIC Ex. 69. Additional
letters involving the same deficiency followed on
March 17, 2010, November 4, 2010, December 27,
2010, January 13, 2011 and February 9, 2011. Id.;

93a
MIC Ex. 45. In addition, each letter merely contained
the same boilerplate verbiage advocating that MIC
“bring these deficiencies to the attention of the appropriate staff members as a training tool.” See, e.g., MIC
Ex. 69. Significantly, there is no indication in the record that any of these fee issues, after being flagged by
the RLC, were ever elevated through channels or otherwise treated any differently than an inadvertent
“good faith” error despite the fact that the VA, at this
point, had actual knowledge that lenders, including
MIC, could be engaging in fraudulent acts with respect to the fees and charges regulation.
Second, and perhaps more important than the
RLC spot audits, were the extensive on-site audits
conducted by the Loan Guarantee Service Monitoring
Unit (“LGSMU”) in July 2010 and December 2012. See
MIC Exs. 63-64 (Initial and Final Reports of On-Site
Audits). 22 This unit was charged with “identify[ing] a
specified number of loans to review” with the “purpose
of . . . assess[ing] compliance with laws, regulations,
policies and procedures” and, as such, was required to
“actually review loan documents.” London Dep. at
169. In the course of both of these audits, which, together reviewed 221 IRRRL loans originated by MIC,
the LGSMU flagged “[n]oncompliance with 38 CFR
36.4313(d) – fees and charges” as a “major deficienc[y].” Id. However, notwithstanding the discovery
of these compliance issues in the wake of the VA
learning of the Relators’ fraud allegations against
MIC, there does not seem to be any indication, either
While the LGSMU conducted an on-site audit of MIC in
March 2004, MIC Ex. 61, the Court does not find this audit
relevant to the present inquiry since it pre-dates the earliest timeframe within which the VA could have gained
knowledge of Relators’ allegations.
22

94a
in the preliminary or final reports or elsewhere in the
record, that the noncompliance was treated as anything other than a mere administrative error. Rather,
the VA simply expressed to MIC that it “should review
the VA Lender’s Handbook and make the necessary
adjustments to ensure future compliance” and that it
“should encourage its loan origination staff to use the
reports as a guide to improving compliance with VA’s
requirements.” Id. 23
London’s testimony bears out the VA’s post-audit
inaction in this regard, as illustrated by the following
testimony:
Q: Are you familiar with the VA’s audits of
lenders?
A: Yes.

This apparent nonchalance on the part of the VA with
respect to the violations found in these audits is especially
disconcerting in light of the fact that the VA has conceded
that the December 2009 audit of another IRRRL lender
“was triggered by the allegations that came to light in November 2009 concerning unallowable fees being charged on
IRRRLs.” London Dep. at 127 (stating “that’s correct” in
response to the question of whether “the audit of Wells
Fargo in December 2009 was triggered by the allegations
that came to light in November 2009”). As such, it is difficult to comprehend why a further review and/or investigation was not considered here given the credible information
imparted by Relators’ allegations and subsequent contact
pointing to the fact that the noncompliance that the VA
was dealing with may not have in fact been merely repetitive administrative errors. Nor does the record provide a
window into the VA’s thought process behind this omission
or a “business as usual” course of action.
23

95a
Q: [ ] And you’re familiar with the outcome of
those audits?
A: I am.
Q: [ ] In connection . . . with all of those audits
. . . did the VA withdraw the guarantee on any
loan as it relates to any of those lenders because of a problem that it found with the closing fee on an IRRRL?
A: No.
Q: As a result of the findings of those IRRRL
audits, did the VA require any lender to sign
an indemnification agreement over a fee issue
found in those audits?
A: Over a fee issue, I do not think so.
While this testimony does not address the full range
of responses that the VA was authorized to take, it
does shed light on the VA’s attitude following the completion of these audits.
It is true that the VA’s loan specialists at both the
RLCs and the LGSMU “are not trained fraud investigators” and, therefore, they are generally “looking for
documents 24 to ensure to the best of [their] abilities
RLC auditors primarily relied upon the HUD-1 settlement statements when conducting sample audits of IRRRL
lenders. See London Dep. at 62 (stating that RLC auditors
“certainly do review the HUD-1 settlement statement”).
However, the HUD-1 is not the only document submitted
by the lender if a loan has been selected for a 10% sample
review. See id. at 59-60; see also MIC Ex. 35 (VA Home
Loan Training Power Point Presentation). Thus, “[i]t’s possible that the VA loan specialist can review more than the
HUD-1” when conducting a sample audit. London Dep. at
62. The Court recognizes that under the circumstances,
24

96a
[that a lender is in] compliance with [the] regulations,
policies, and procedures” and as consequence they
might not “necessarily be aware that [a] . . . charge is
higher than it should be because it includes a fee that
shouldn’t be assessed.” London Dep. at 334; White
Dep. at 90. However, it is undisputed that the VA had
knowledge of the allegations during this timeframe.
See London Dep. at 334 (acknowledging that “[y]es, we
did have knowledge [of the allegations involved in this
lawsuit] during that time frame”). Nevertheless, the
record strongly suggests that the VA failed to channel
this information to their loan specialists to enable
these auditors to exercise heightened vigilance when
conducting audits in light of the allegations. Nor does
it appear that the VA further elevated the fees and
charge deficiencies that were uncovered to the OIG in
order to conduct a more in-depth inquiry aimed at ferreting out any wrongdoing and taking corrective action against MIC if warranted. In fact, there is not a
stitch of evidence indicating that the VA did anything
at all in recognition that this noncompliance presented a larger issue than a simple case of a lender
making inadvertent missteps in the levying of charges
and fees. And MIC was a lender that the VA itself
acknowledged was one of the highest volume IRRRL
originators in its stable. See MIC Ex. 64 (identifying
MIC as one of the VA’s “highest volume [IRRRL] lenders”).
Finally, the Court acknowledges London’s testimony that in his opinion (and presumably the VA’s as
well since he testified as a 30(b)(6) witness) “if the VA
either suspected or found fraud that we would take
however, this would only create more work for the auditor
and fall outside his or her routine — and therefore was unlikely to occur frequently.

97a
that seriously and the appropriate channels would be
alerted” and that in his “personal experience in the
program . . . we take fraud seriously and we would
have alerted the appropriate channels” if fraud was
uncovered or otherwise suspected. London at 240.
Likewise, during White’s deposition, he agreed with
the proposition that “the VA would never let intentional fraud be treated as a mere administrative offense if the VA knew it was intentional fraud” while
observing that “if there was ever a situation where
there was some sort of broad pattern of knowingly doing something [like the actions alleged in this case],
then it would be elevated” and that “if it happens over
and over again, then the field stations can, and they
have done this, [ ] suggest monitoring.” White Dep. at
97, 121.
The problem with London and White’s testimony
on this topic is that it is entirely generalized and speculative. Indeed, neither London nor White testified
that they had in the past encountered particular
fraudulent practices by lenders during their tenure
with the VA and the VA affirmatively reacted by taking a certain course of action. To the contrary, their
respective testimony merely suggests that if fraud
was suspected or uncovered, the VA would have taken
that seriously. However, under the present circumstances, where the Court has the benefit of hindsight,
the testimony offers little assistance to the materiality
inquiry. This is because the VA’s response (or lack
thereof) after being informed of Relators’ specific allegations is clear from the record. That is, where continued violations were uncovered, the VA merely required that MIC issue refunds to borrowers, without
fail. In the face of such knowledge, coupled with its
consistent and unwavering inaction, the testimony

98a
provided by the VA (through London) and White in
this area is not particularly helpful.
Before proceeding, the Court takes a moment to
circle back to its earlier observation concerning the
VA’s issuance of refunds. See supra at 38-41. The use
of this mechanism by the VA in the face of generalized
noncompliance by lenders does have merit and serves
to distinguish this case from others of the same ilk.
However, its ultimate effect on the materiality inquiry
is seriously muted by the VA’s behavior in the wake of
acquiring knowledge of the Relator’s allegations. Indeed, the record reflects that refunds were utilized exclusively despite the VA’s knowledge of the allegations in this case. As such, while the VA’s use of refunds is relevant to the overall materiality inquiry,
the utilization and ultimate significance of this mechanism, when viewed through the lens of materiality,
is simply overshadowed by the VA’s complete lack of
any heightened response following such revelations.
v. The Absence of Materiality
“The [FCA]requires proof that a vendor committed some non-compliance that resulted in a material
deviation in the value received and requires proof that
the deviation would materially and adversely affect
the buyer’s willingness to pay.” Salus Rehabilitation,
LLC, 304 F. Supp. 3d at 1263. In Universal Health,
the Supreme Court clarified how the FCA’s “rigorous”
materially element should be interpreted and enforced. See generally Universal Health Services, Inc.,
136 S. Ct. 1989. In evaluating materiality, the Court
observed that where “the Government regularly pays
a particular type of claim in full despite actual
knowledge that certain requirements were violated,
and has signaled no change in position, that is strong
evidence that the requirements are not material.”

99a
Universal Health Services, Inc., 136 S. Ct. at 2003. In
addition, “though not dispositive, continued payment
by the federal government after it learns of the alleged
fraud substantially increases the burden on the relator in establishing materiality.” Harman, 872 F.3d at
663 (surveying cases). Moreover, “[s]uch very strong
evidence becomes compelling when an agency armed
with robust investigatory powers . . . is told what Relators have to say, yet sees no reason to change its position.” Nargol, 865 F.3d at 35.
In the present case, the Court is faced with an important regulatory requirement that is, without
doubt, a condition of obtaining a loan guarantee. See
38 C.F.R. § 36.4313(a). However, the Supreme Court
has made clear that such a requirement, in and of itself, is not sufficient to establish (or in this instance to
raise a genuine fact issue) as to materiality. Universal
Health Services, Inc., 136 S. Ct. at 2003 (recognizing
that “the Government’s decision to expressly identify
a provision as a condition of payment is relevant, but
not automatically dispositive”); see also Petratos, 855
F.3d at 490 (recognizing that “the [FCA] is not a blunt
instrument to enforce compliance with all . . . regulations”) (internal citation omitted). In addition, the relevant evidence in the record as surveyed by the Court
in this opinion—including evidence pertaining to the
VA’s generalized and particularized knowledge of
MIC’s alleged noncompliance and its responses to the
same—significantly belies the notion that the VA
characterized the alleged noncompliance in this case
as material. To the contrary, the opposite appears
true. That is, the VA seemed to regard the rampant
noncompliance, even after gaining knowledge that
there could be wide-ranging fraud afoot, as an administrative error subject to facile correction, as evi-

100a
denced by its altogether laissez faire attitude in dealing with the problem (i.e., requiring offending lenders
to continually issue refunds even in the face of Relators’ allegations concerning the potential scope of the
problem and fraudulent dimension). See London Dep.
at 107-08, 167-68.
In view of the sheer weight of the countervailing
facts in the present record coupled with the current
state of the law as concerns materiality, the Relators’
claims appear to founder. Therefore, in order to survive summary judgment, Relators must do more than
merely rely on the existence of the regulatory provision in order to raise a genuine issue of material fact
as to the element of materiality. However, after surveying the record and considering Relators’ arguments, the Court does not find that Relators have offered sufficient evidence from which a reasonable trier
of fact could find in their favor as to this element. In
other words, Relators have not pointed to any evidence that the VA regarded the disputed practices as
material (i.e. central as opposed to collateral) such
that noncompliance would have a palpable and concrete effect on the VA’s decision to honor the loan
guarantees as concerns MIC. 25 Nor have Relators offered evidence tending to show that MIC knew that
The Court points out that 38 U.S.C. Section 3721, known
as the Incontestability Provision, requires the VA to honor
loan guarantees, even where fraud is later uncovered, in
cases where the loans (and associated guarantees) have
been sold on the secondary market to holders-in-duecourse. See 38 U.S.C. § 3721 (“Any evidence of guaranty or
insurance issued by the Secretary shall be conclusive evidence of the eligibility of the loan for guaranty or insurance
under the provisions of this chapter and of the amount of
such guaranty or insurance.”). Thus, while the VA is statutorily obligated to honor the guarantee as to such a third25

101a
the VA itself regarded the noncompliance as material
as opposed to administrative errors subject to correction. Thus, although MIC may have had full
knowledge of its ongoing gaming of established VA fee
requirements, it was not placed on notice that the VA
would view such fee practices as material and grounds
for sanctions beyond the mere refund requirement
identified in VA audits of a fraction of the mortgages
extended by MIC. See Universal Health Services, Inc.,
136 S. Ct. at 2003 (pointing out that proof of materiality can include “evidence that the defendant knows
that the Government consistently refuses to pay
claims in the mine run of cases based on noncompliance with the particular statutory, regulatory, or contractual requirement”). Although the Court views this
conjunction of evidence in the record as highly disturbing, the Court finds such omissions to be legally
fatal given the current status of the law, even though
party bona-fide purchaser, the statute makes clear that
“[n]othing in this section shall preclude the Secretary from
establishing, as against the original lender, defenses based
on fraud or material misrepresentation. The Secretary
shall not, by reason of anything contained in this section,
be barred from establishing, by regulations in force at the
date of such issuance or disbursement, whichever is the
earlier, partial defenses to the amount payable on the guaranty or insurance.” Id. (emphasis added). The VA has established such regulations. See 38 C.F.R. § 4328. Despite
the Incontestability Provision and the regulations promulgated thereunder, which provide the VA a mechanism
through which to take adverse action against a lender even
where the loan and associated guarantee have been sold on
the secondary market, there is no evidence in the record
that the VA, notwithstanding its knowledge of Relators’ allegations, has once exercised such authority as against
MIC. See London Dep. at 107-08, 167-68.

102a
this conclusion may fly in the face of the original goals
of the FCA.
It is worth pointing out that “[t]he fraud in Escobar—unqualified mental health providers and substandard mental health care—profoundly and manifestly affects a government’s willingness to pay, a fact
undoubtedly obvious to the provider . . . [and] . . . Escobar offers the hypothetical but instructive example
of a vendor selling to the government a gun that will
not shoot, a defect that renders the weapon useless
and valueless, as the vendor well knows.” Salus Rehab., LLC, 304 F. Supp. 3d at 1264. In contrast, the
alleged unauthorized fees and charges at the heart of
this action, when considered against the backdrop of
this evidentiary record, do not appear to rise to such a
level. Rather, according to White, IRRRL loans are
“just another product that the veteran could take advantage of” with the primary purpose of “reduc[ing]
the interest rate [so] that the [veteran’s monthly] payment would go down ultimately saving the veteran
some money.” White Dep. at 27-28; see also id. at 29
(explaining that the payment nevertheless may still
go up “if the person went from a 30-year loan to a 15year loan” or if the veteran “has an [Adjustable Rate
Mortgage] loan, a hybrid [Adjustable Rate Mortgage]
or a traditional [Adjustable Rate Mortgage] . . . and
they [have] refinanced to a fixed rate loan, that [is] a
situation where the rate can remain the same or increase”).
To be clear, the Court is not of the opinion that the
charges and fees regulation is no more than an insignificant regulatory requirement. See, e.g., Universal
Health Servs., Inc., 136 S. Ct. at 2004 (recognizing
that “the [FCA] is not a means of imposing treble damages and other penalties for insignificant regulatory
or contractual violations.”). Rather, the limitations

103a
imposed upon the types of charges and fees which can
be paid by veteran borrowers and the concomitant certification by the lender as to its compliance with this
requirement furthers the purpose of “limit[ing] the
fees that the veteran can pay to obtain a loan” which,
in turn, ensures that a veteran borrower can effectively “use his or her home loan benefit.” VA Pamphlet § 8.01. Indeed, the overall importance of the limitations on borrower-paid charges and fees comes into
focus if one contemplates what happens if lenders run
roughshod over this requirement. In such cases, the
overall cost of the IRRRL loan to the borrower would
increase based upon the erroneously allocated charge
or fee. To be sure, when juxtaposed against a $100 or
$200 thousand-dollar home loan, the erroneous fee,
which may only turn out to be in the hundreds of dollars, is but a tiny fraction. However, at the same time,
this small fraction nevertheless represents a cost that
is not meant to be shouldered by the borrower (either
via a cash payment or otherwise rolled into the overall
loan balance) or alternatively added as a profit or cost
reimbursement to the mortgage company or bank. In
addition, the significance of this requirement is underscored by the fact that the VA has conditioned the
loan guarantee upon a lender’s certification that it has
in fact complied with this regulatory provision. See 38
C.F.R. § 36.4313(a); VA Pamphlet § 8.01 (setting forth
that “[l]enders must strictly adhere to the limitations
on borrower-paid fees and charges when making VA
loans.”) (emphasis omitted).
The regulation of charges and fees thus undoubtedly plays a small but important part in furthering
the goal of reducing a borrower’s monthly loan payment over the long term. Yet it is equally true that
neither this Court’s view as to the regulation’s overall
importance nor the fact that the VA has identified the

104a
provision as a condition of obtaining a loan guarantee
satisfies the materiality inquiry. See Universal Health
Servs., Inc., 136 S. Ct. at 2003. Put another way, the
question is whether, in light of the unique circumstances present here, the charges and fees at issue are
analogous in centrality to the provision of unqualified
mental health care providers and substandard mental
health care (as in Universal Health), guns that will
not shoot (the Universal Health hypothetical) or protective services personnel charged with the safety of
diplomats who failed to fulfill the contract’s weapon’s
qualification requirement (United States ex rel. Beauchamp v. Academi Training Center, Inc., 2005 F.
Supp. 3d 676 (E.D. Va. 2016)). In light of the particularized facts contained in the present record and the
VA’s interactions with this particular Defendant, the
Court answers this question in the negative. 26
“Courts can properly dismiss an FCA claim on
summary judgment based on a claimant’s failure to
meet the rigorous standard for materiality under the
FCA.” Kelly, 846 F.3d at 333 (citing Universal Health
The Court stresses that this finding should not be interpreted as a blanket pronouncement that the fees and
charges regulation and any associated noncompliance with
the same is, in all cases, immaterial. To the contrary, this
finding is entirely dependent upon the precise facts and circumstances at issue on this record. Thus, the reader is
strongly cautioned that the Court’s holding in this regard
should not be blindly applied to a different case involving
varied facts concerning this same requirement. In other
words, this finding is limited to the discrete facts of this
case. As such, the finding should not be interpreted as a
broad pronouncement of materiality vis-à-vis the regulation, but rather a narrowly-tailored finding necessitated by
the facts and circumstances present here involving the
VA’s handling of MIC’s practices.
26

105a
Services, Inc., 136 S. Ct. at 2004, n.6). The Court, after
conducting an assiduous review of the record evidence
germane to this element, is constrained to find that
this “rigorous standard” has not been met here. Therefore, although the Court is not persuaded that the
standards set forth in Universal Health concerning
materiality provide a sufficiently adaptive standard
or level playing field for claimants (and the Government) seeking to successfully allege and later establish the existence of this element, where fraudulent
practices have abounded, the Court is nevertheless
constrained by all pronouncements of the Supreme
Court and must faithfully apply those directives to the
case at hand. On that basis, the Court finds that Relators have failed to raise a triable factual issue as to
this element and their FCA claims fail as a matter of
law.
V. CONCLUSION
This case lays plain what happens when zealous
advocacy crosses the line into scorched-earth tactics.
Defendants’ strategies, tactics and behavior throughout the pendency of this litigation—including the filing of a plethora of motions and inconsistent and incomplete evidentiary disclosures—all of which
brought this litigation to a crawl—have repeatedly
vexed the Court over the years. However, Relators too
have not always taken the proverbial high road during
the pendency of this case during their pursuit of victory. That is not to say that Defendants have been successful in pulling the wool over the Court’s eyes with
respect to the charges and fees issues that are clearly
present on the face of this record. To quote Shake-

106a
speare, “[s]omething is rotten in the state of Denmark.” 27 Although the Court harbors its own very
strong concerns as to what was really going on at MIC
with respect to the imposition of charges and fees on
veteran borrowers during the origination of IRRRL
loans, the Court is not permitted to jettison or otherwise ignore the lens of controlling law in assessing the
evidentiary record.
In that regard, it is again worth mentioning that
factual issues pervade this case and, as such, resolution would normally require a full trial before a trier
of fact. But, as the Court has previously stated early
in this Order, “in light of the record presently before
the Court, [this action] fails to survive summary judgment not because no fact issues exist (they do) but rather, because the facts relevant to materiality, as presented and taken in the light most favorable to Relators as the non-moving party, simply cannot surmount the ‘rigorous’ and ‘demanding’ materiality
threshold required by Universal Health.” Supra at 34 (quoting Universal Health Servs., Inc., 136 S. Ct. at
2003; see id. at 1996).
The Court also takes a moment to lament the VA’s
complete lack of action in the wake of being informed
of Relators’ allegations and the ensuing discussions
that took place concerning the nature of the claims in
this lawsuit. As previously stated, the VA, upon learning the nature of the alleged fraudulent activity, could
have pursued a myriad of avenues in order to attempt,
on its own, to establish whether such fraud was taking
place and, if so, weed it out while taking appropriate
actions against those entities responsible for perpetrating any such fraud. Indeed, the VA is armed with
27

Hamlet, Act I, Scene 4.

107a
an OIG for such an express purpose. 28 However, neither the VA nor its OIG division appeared to take any
interest in what Relators had to say as evidenced by
any modicum of serious investigative action with respect to Defendants’ alleged conduct or through the
issuance of even a stern written warning when continued noncompliance with the fee and charges regulation was uncovered and persisted. Instead, the VA assumed and proceeded as if the noncompliance was
nothing more than a parade of inadvertent errors.
Even upon conducting on-site audits of MIC in 2010
and 2012, which uncovered fees and charges violations, the VA did nothing except resort to its standard
practice of directing that a refund be issued to the borrower. While the cause of the VA’s paralysis after being confronted with Relators’ allegations is anyone’s
guess, its complete inaction not only dooms Relators’
claims but also calls into question the VA’s own position as to the overall importance vel non of this requirement. In a word, the Court expected more from
the VA and the Government.
It must be stressed that “[i]t is cheating the government at which the [FCA] aims and Congress [is]
entitled to protect the government against those who
would swindle it regardless of questions of constitutional authority as to the operations that the government is conducting.” United States v. Kapp, 302 U.S.
214, 218, 58 S. Ct. 182, 184, 82 L. Ed. 205 (1937); see
United States v. Griswold, 24 F. 361, 366 (D. Or. 1885)
(“The statute is a remedial one. It is intended to pro-

The VA OIG’s mission is “[t]o serve veterans and the public by conducting effective oversight of the programs and
operations of the [VA] through independent audits, inspections, reviews, and investigations.” See www.va.gov/oig.
28

108a
tect the treasury against the hungry and unscrupulous host that encompasses it on every side, and
should be construed accordingly. It was passed upon
the theory, based on experience as old as modern civilization, that one of the least expensive and most effective means of preventing frauds on the treasury is
to make the perpetrators of them liable to actions by
private persons acting, if you please, under the strong
stimulus of personal ill will or the hope of gain. Prosecutions conducted by such means compare with the
ordinary methods as the enterprising privateer does
to the slow-going public vessel.”). Congress has made
a valiant effort, over the course of many years and
through different iterations of the FCA, in fashioning
a law which protects the Government (and by extension the taxpayers) from unscrupulous actors whose
primary aim is to poach funds from the treasury. However, despite Congress’s best efforts, it appears to this
Court that the very aim of the FCA may be undermined by a rigid interpretation of Universal Health’s
requirements that does not recognize the unique statutory importance of the private enforcement mechanism in FCA litigation, especially when the government falls down on fulfilling its administrative duty
of investigation of fraudulent practices and initiating
related sanctions or enforcement actions or becomes
captive to the industry it regulates.
In this Court's view, the high materiality requirements set forth in Universal Health and its progeny,
may ultimately eviscerate the independent statutory
role of qui tam relators as independent litigation
agents under the FCA for rooting out fraud from government programs because bureaucratic failures, industry capture, or limitations in government investigative capacity or commitment, may effectively translate into an insurmountable "materiality" defense.

109a
Whether this result is consistent with Congressional
intent and legislative objectives for the FCA's private
enforcement mechanism, falls ultimately, though, to
Congress to address.
Indeed, by inextricably tying materiality to the
“likely or actual behavior” of the Government, the Supreme Court may have effectively as a pragmatic matter — whether intentionally or not — made a relator’s
burden akin to summiting Mount Everest in a winter
storm. Universal Health Services, Inc, 136 S. Ct. at
2002 (“under any understanding of the concept, materiality looks to the effect on the likely or actual behavior of the recipient of the alleged misrepresentation.”).
This is because the Government may harbor a vast array of reasons as to why it refuses to act in the face of
fraud, waste and abuse on the public treasury— reasons which a relator has no control over and which
may ultimately have no nexus to the overarching goal
of the FCA. Thus, in many cases, Government passivity in the wake of the discovery of fraud may be intentional despite the fact that such action runs counter to
the tenets enshrined within the FCA. Likewise, even
if the Government begins to ponder embarking upon
a course of action, it may well be stymied in light of
the many bureaucratic layers which exist and which
necessarily encompass competing policy interests and
goals or alternatively, dysfunction.
While the Court is sensitive to the fact that the
FCA “is not an all-purpose antifraud statute, or a vehicle for punishing garden-variety breaches of contract or regulatory violations,” Universal Health
Servs., Inc., 136 S. Ct. at 2003, neither is it of the opinion that protracted Governmental paralysis, after
fraud is uncovered, should effectively doom a relator’s
chances of successfully prosecuting an FCA claim
brought on behalf of the Government and the public

110a
(assuming all other statutory elements are met).
Thus, while the Government is at liberty to close it
eyes and do nothing in the face of what may amount
to pervasive fraud, such governmental inaction should
not be inextricably intertwined with whether the element of materiality has been satisfied. Put another
way, keying materiality to the likely or actual behavior of the Government may lead, in many cases, to the
wrong result—immunizing from liability those who
would plunder the Government’s coffers. Indeed, such
an end result would seem to run completely at odds
with Congress’s intent in creating and amending the
private right of action provisions—to strengthen the
capacity of a knowledgeable private litigant to vindicate the public interest in rooting out fraudulent contractor practices that prey on the Government’s funds
because of the Government’s blindly acceding to business as usual.
In Marcus, the Supreme Court long ago recognized the statutory importance of the FCA’s private
enforcement mechanism by pointing out that
one of the chief purposes of the Act, which was
itself first passed in war time, was to stimulate action to protect the government against
war frauds. To that end, prosecuting attorneys were enjoined to be diligent in enforcement of the Act’s provisions, and large rewards were offered to stimulate actions by private parties should the prosecuting officers be
tardy in bringing the suits.
Marcus, Id. at 547, 63 S. Ct. at 386, 87 L. Ed. 443.
While Marcus predates a number of important
amendments to the FCA, its observations concerning
the role of private enforcement actions remain no less
relevant given the core function of that mechanism in

111a
the present-day FCA statutory scheme. Indeed, during the hearings on the 1986 amendments, the Senate
Committee voiced its concern that “[s]ince the act was
last amended in 1943, several restrictive court interpretations of the act have emerged which tend to
thwart the effectiveness of the statute” and the proposed amendments were therefore “aimed at correcting restrictive interpretations of the act’s liability
standard, burden of proof, qui tam jurisdiction and
other provisions in order to make the False Claims Act
a more effective weapon against Government fraud.”
S. Rep. 99-345, as reprinted in U.S.C.C.A.N. at 5269.
Having discussed the above serious concerns at
length as well as the analysis dictated by governing
law at this moment, the Court GRANTS Defendants’
motion for summary judgment [Doc. 955] in its entirety. The Clerk’s Office is DIRECTED to terminate
as moot all other pending motions (except motions to
seal which are discussed below) and close this case.
The Court finally takes a moment to address the
issue of public access to the information contained in
(1) Defendant MIC’s motion and reply [Docs. 955,
1008] as well as the documents comprising Relators’
opposition and sur-reply (Docs. 1004, 1017]) and (2)
Defendant Edwards’ summary judgment motion and
reply regarding piercing the corporate veil [Docs.
1050, 1070] as well as the documents comprising Relators’ opposition and sur-reply (Docs. 1067, 1076). It
is beyond dispute that “[t]he operations of the courts
and the judicial conduct of judges are matters of utmost public concern, and [t]he common-law right of
access to judicial proceedings, an essential component
of our system of justice, is instrumental in securing
the integrity of the process[.]” Romero v. Drummond
Co., 480 F.3d 1234, 1245 (11th Cir. 2007) (second alteration in original). A corollary to this proposition is

112a
that “[m]aterial filed in connection with any substantive pretrial motion, unrelated to discovery, is subject
to the common law right of access.” Id. (clarifying that
“material filed in connection with pretrial motions
that require judicial resolution of the merits is subject
to the common-law right”). Nevertheless, “[t]he common law right of access may be overcome by a showing
of good cause, which requires balanc[ing] the asserted
right of access against the other party’s interest in
keeping the information confidential.” Id. at 1246
(second alteration in original). “In balancing the public interest in accessing court documents against a
party’s interest in keeping the information confidential, courts consider, among other factors, whether allowing access would impair court functions or harm
legitimate privacy interests, the degree of and likelihood of injury if made public, the reliability of the information, whether there will be an opportunity to respond to the information, whether the information
concerns public officials or public concerns, and the
availability of a less onerous alternative to sealing the
documents.” Id.
After considering the factors bearing upon this issue, and in light of the fact that MIC is no longer an
actively operating business entity, 29 the Court finds
good cause to be lacking to support the parties’ extensive sealing requests. 30 As a result, these filings must
be unsealed. Put another way, any interest held by
The Court takes judicial notice of the information listed
on the Florida Department of State official website which
designates the status of MIC as “Inactive.” See
http://search.sunbiz.org/Inquiry/CorporationSearch/.
30
The Court acknowledges that Relators were required to
file motions to seal as a direct consequence of MIC’s Protective Order.
29

113a
MIC in the confidentiality of the documents submitted
in conjunction with its dispositive motion are significantly outweighed by the public’s interest in having
unfettered access to this material. 31 See Chicago Tribune Co. v. Bridgestone/Firestone, Inc., 263 F.3d 1304,
1311 (11th Cir. 2001) (“Not unlike the Rule 26 standard, the common-law right of access requires a balancing of competing interests.”). This position is consonant with the “right of public access to pretrial motions of a nondiscovery nature, whether preliminary
or dispositive, and the material filed in connection
therewith.” Romero, 480 F.3d at 1246; see Chicago
Tribune Co., 263 F.3d at 1312 (holding that “discovery
material filed in connection with pretrial motions that
require judicial resolution of the merits is subject to
the common-law right [of access]”). Thus, all material
relating and responding to MIC’s summary judgment
motion [Doc. 955] and Edwards’ summary judgment
motion [Doc. 1050] will be unsealed. Despite the
Court’s ruling in this regard, there remain very real
concerns that Personally Identifiable Information
(“PII”) may be present on the face of various mortgage
documents filed as part of MIC’s motion. In addition,
as part of Edwards’ motion, there exists financial information relating solely to Edwards’ in his individual
capacity (as opposed to financial information related
to MIC and its financial expenditures, transfers, etc.,
which may remain unredacted) which should not be
made public. As such, certain information encompassed within each of these motions must be redacted
for public consumption, as set forth more fully below.
The Court finds that with respect to Edwards’ motion,
the balance similarly tips in favor of permitting access by
the public, with certain qualifications as discussed more
fully here.
31

114a
Turning first to MIC’s motion for summary judgment [Doc. 955], MIC and Relators are DIRECTED
to review all filings in connection with MIC’s motion
(Docs. 1004, 1008, 1017) and redact all PII that exists
on the face of all IRRRL loan documents (HUD-1s as
well as any other document containing PII) and any
associated documents. The term “PII” as used in this
Order refers to those categories of information as set
forth in the Northern District of Georgia Standing Order Number 04-02. However, in addition to the categories of PII referenced therein, the parties shall also
redact any telephone numbers that appear on the face
of any mortgage documents. The redacted versions of
all documents related to MIC’s motion SHALL BE
filed on the Court’s electronic docket not later than
July 19, 2019. Each party is responsible for redacting
PII in the documents it filed.
Turning next to Edwards’ summary judgment
veil-piercing motion [Doc. 1050], MIC and Relators
are DIRECTED to review all filings in connection
with MIC’s motion (Docs. 1067, 1070, 1076) and redact
all PII, to the extent any exists, as well as any and all
financial information related to Edwards in his individual capacity (as opposed to financial information
related to MIC and its financial expenditures, transfers, etc., which may remain unredacted). Similar to
the redactions associated with MIC’s motion, these redactions SHALL BE filed on the Court’s electronic
docket not later than July 19, 2019. Each party is responsible for redacting PII in the documents it filed.
The Clerk’s Office is hereby: (1) DIRECTED to
GRANT, IN PART, AND DENY, IN PART, all
pending motions to seal whether filed by MIC or Relators (thus effectively sealing these initial versions
which may include PII and financial information related to Edwards), subject to the parties’ compliance

115a
with the above filing directives; and (2) FURTHER
DIRECTED to identify each redacted filing (once
submitted by the parties) as a replacement version of
the originally filed document(s) and cross-reference
these filings accordingly. In that regard, the explanatory docket text should reflect that these newly filed
redacted versions contain more information than was
available in the originally filed redacted versions. By
way of example, when a revised redacted version of
Doc. 955 (or any documents comprised within that
main filing) is submitted by Defendants, the Clerk’s
Office shall clearly identify this new filing as a replacement version containing further textual disclosure than the originally filed redacted document but
cross-reference it with the originally filed version.
Such labeling will help to ensure continued docket
clarity for those individuals who search the docket in
the future. To assist the Clerk’s Office in this task, the
parties are likewise DIRECTED to clearly identify all
revised redacted submissions upon filing.
IT IS SO ORDERED this 1st day of July, 2019.
[handwritten signature]
Amy Totenberg
United States District Judge

